<html>
<title> - THE DEPARTMENT OF DEFENSE AND THE FISCAL YEAR 2008 BUDGET</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
       THE DEPARTMENT OF DEFENSE AND THE FISCAL YEAR 2008 BUDGET 
=======================================================================
                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 6, 2007

                               __________

                           Serial No. 110-12

                               __________

           Printed for the use of the Committee on the Budget


                       Available on the Internet:
       http://www.gpoaccess.gov/congress/house/budget/index.html

                     U.S. GOVERNMENT PRINTING OFFICE

33-756 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

















                        COMMITTEE ON THE BUDGET

             JOHN M. SPRATT, Jr., South Carolina, Chairman
ROSA L. DeLAURO, Connecticut,        PAUL RYAN, Wisconsin,
CHET EDWARDS, Texas                    Ranking Minority Member
JIM COOPER, Tennessee                J. GRESHAM BARRETT, South Carolina
THOMAS H. ALLEN, Maine               JO BONNER, Alabama
ALLYSON Y. SCHWARTZ, Pennsylvania    SCOTT GARRETT, New Jersey
MARCY KAPTUR, Ohio                   THADDEUS G. McCOTTER, Michigan
XAVIER BECERRA, California           MARIO DIAZ-BALART, Florida
LLOYD DOGGETT, Texas                 JEB HENSARLING, Texas
EARL BLUMENAUER, Oregon              DANIEL E. LUNGREN, California
MARION BERRY, Arkansas               MICHAEL K. SIMPSON, Idaho
ALLEN BOYD, Florida                  PATRICK T. McHENRY, North Carolina
JAMES P. McGOVERN, Massachusetts     CONNIE MACK, Florida
BETTY SUTTON, Ohio                   K. MICHAEL CONAWAY, Texas
ROBERT E. ANDREWS, New Jersey        JOHN CAMPBELL, California
ROBERT C. ``BOBBY'' SCOTT, Virginia  PATRICK J. TIBERI, Ohio
BOB ETHERIDGE, North Carolina        JON C. PORTER, Nevada
DARLENE HOOLEY, Oregon               RODNEY ALEXANDER, Louisiana
BRIAN BAIRD, Washington              ADRIAN SMITH, Nebraska
DENNIS MOORE, Kansas
TIMOTHY H. BISHOP, New York
[Vacancy]

                           Professional Staff

            Thomas S. Kahn, Staff Director and Chief Counsel
                James T. Bates, Minority Chief of Staff

















                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, March 6, 2007....................     1
Statement of:
    Hon. John M. Spratt, Jr., Chairman, House Committee on the 
      Budget.....................................................     1
    Hon. Paul Ryan, a Representative in Congress from the State 
      of Wisconsin...............................................     3
    Hon. Gordon England, Deputy Secretary of Defense; ADM Edmund 
      P. Giambastiani, Jr., USN, Vice Chairman, Joint Chiefs of 
      Staff; and Hon. Tina W. Jonas, Under Secretary of Defense--
      Controller/Chief Financial Officer.........................     6
Prepared statement of:
    Hon. Jeb Hensarling, a Representative in Congress from the 
      State of Texas.............................................     5
    Secretary England, et al.....................................     7


                     THE DEPARTMENT OF DEFENSE AND
                      THE FISCAL YEAR 2008 BUDGET

                              ----------                              


                         TUESDAY, MARCH 6, 2007

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in room 
210, Cannon House Office Building, Hon. John Spratt [chairman 
of the committee] presiding.
    Present: Representatives Spratt, Cooper, Allen, Schwartz, 
Kaptur, Becerra, Doggett, Blumenauer, Boyd, McGovern, Sutton, 
Scott, Etheridge, Hooley, Moore, Bishop, Ryan, Barrett, Bonner, 
Diaz-Balart, Hensarling, Lungren, Mack, Campbell, Tiberi, 
Porter, and Smith.
    Chairman Spratt. Secretary England, Secretary Jonas and 
Admiral Giambastiani, we are grateful that you have come here 
again to testify about the defense budget. To help us better 
understand the assumptions that underlie, the President's 2008 
discretionary budget provides $643.7 billion for what we call 
``Function 050,'' National Defense. That makes this the largest 
defense budget since the Second World War. Of this amount, 
$501.9 billion is for the so-called ``base defense budget,'' 
and $142 billion is for operations associated with Iraq and the 
global war on terrorists. Nearly $623 billion of the total goes 
to the Department of Defense and falls in your domain.
    The defense budget has been on an upward, ascending 
trajectory over the last 6 years, and the President's budget 
for 2008 continues this trend. With the retirement of the baby 
boomers on the horizon, 77 million of them marching to their 
retirement as we meet today, and the budget pressures that will 
bring to bear on Social Security, Medicare and Medicaid, we 
have to ask ourselves ``is the enlarging, setting and enlarging 
an unprecedentedly large peacetime defense budget 
sustainable?''
    We are fighting the battle of the budget here on this 
committee, trying to balance the budget over a reasonable 
period of time. We both said 2012. The President has accepted 
that goal as the goal we should all strive to attain, but the 
question is can we accommodate your defense plans within a 
budget that comes to balance in the year 2012.
    It also appears that we have underestimated various costs 
of the war in which we are now engaged, particularly in Iraq. 
We certainly did not estimate the magnitude of the aftermath, 
what would ensue the active fighting, and the cost there has 
been enormous.
    In addition, in recent days we have been awakened to the 
fact that there is another cost that we did not fully 
appreciate or accrue, and that is the cost of treating our 
veterans who are coming back with grievous injuries, some of 
which are mental as well as physical.
    The base defense budget, as we call it--that is, without 
supplementals--is $37 billion above the amount that CBO says is 
needed to maintain current services for 2008 and $237 billion 
above current services for over 5 years. That makes it not just 
the biggest single element in the budget, the discretionary 
budget, by far but also the fastest growing, faster growing 
than even most of the entitlement programs.
    These increases capture, however, only a portion of the 
total increases to the defense budget since the beginning of 
the Bush administration, total defense spending increase under 
the administration's policies, which include war costs for 
2009, that will exceed the CBO baseline set in January 2001, 
when Mr. Bush took office, by $1.7 trillion. This amount will 
likely increase because the administration includes after 2009 
no funding for our military operations in Iraq or Afghanistan. 
For the first time, the administration has requested funding 
for war operations for the upcoming year along with its base 
budget, and for that I commend you for including that request. 
It has been long overdue.
    Using supplemental appropriations to fund war operations 
has been problematic for various reasons, but it does require 
the military frequently to divert funds from regular accounts 
to pay for war costs, to borrow from Paul to pay Peter. Until a 
supplemental is enacted and it increases, the practice has many 
effects, one of which is on readiness, which is a concern to 
all of us.
    The administration's current request for the wars in 
Afghanistan and Iraq, $170 billion for 2007, of which $70 
billion has already been appropriated, $145 billion for 2008, 
are the largest yet and reflect increases of $50 billion and 
$25 billion respectively over the 2006 funding level. We are 
very interested in learning the details that underlie these 
estimates and are hoping to get your assurances that the budget 
is not only providing for the needs of our servicemen and 
servicewomen while they are in harm's way but is also providing 
for the needs of those who have been injured and have returned 
with injuries that are physical and mental.
    I am also concerned regarding our overall security 
priorities in the budget. Are we actually putting funds toward 
those programs that address the most severe and serious threat 
we face? For example, the President has stated on several 
occasions that our number one security concern is nuclear 
weapons or other weapons of mass destruction in the hands of 
terrorists. If the funding to combat this threat has been 
lacking, the Cooperative Threat Reduction Program, for 
instance, which is designed to secure nuclear materials in 
Russia and other states of the former Soviet Union, would help 
ensure that these dangerous materials have not fallen into the 
wrong hands. The one thing they lack is nuclear materials. The 
9/11 Commission recommended that we place the highest priority 
on this, but I am concerned that we have not done it. While 
funds have been plentiful to finance large weapon systems to 
combat traditional, many would say, Cold War threats like 
missile defense, funds have been lacking to combat the more 
likely threat, unconventional, asymmetrical threats posed by 
terrorists. The 2008 budget cuts the Cooperative Threat 
Reduction by $24 million. That is not a lot of money, but it is 
a significant cut in a program that addresses what we would 
commonly concede, I think agree, stipulate, is the largest, 
most serious threat we face, particularly stateside in the 
United States.
    Secretary England, we look forward to your testimony on the 
budget. We hope you can give us a better understanding of the 
assumptions that underlie it, the assumptions you have used in 
building the budget and the long-term consequences. Before 
turning to you for your statement, though, let me ask Mr. Ryan 
for any statement he has to make.
    Mr. Ryan. Thank you, Chairman. I, too, want to welcome the 
Secretary and the Admiral to the hearing.
    In evaluating the President's defense requests, it is 
helpful to look at it in both a financial and a strategic 
context because since the end of the Cold War we have been 
trying to readjust our national defense posture to meet a 
vastly different set of security challenges from those we have 
been accustomed to. It is what the Pentagon likes to call 
``transformation.'' it has been going on since the Berlin Wall 
came down, and it is going on today. The difference is now that 
instead of managing a head-to-head competition between nuclear 
superpowers we have a worldwide war against terrorism in which 
adversaries can strike at any time, anywhere from Baghdad to 
London to New York City, and emerging nuclear threats from 
smaller countries like North Korea and Iran.
    Our struggles with this transformation are reflected in our 
defense spending patterns of the past few decades, and if you 
could call up chart number 1, please, that would be very 
helpful.
    Have you got it, Jose?
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Well, if you saw chart number 1, what it would be showing 
you is--yes. Can you see it right here? There you go. I thought 
we had this figured out last week.
    Throughout the 1990s, we financed national defense for 
about $300 billion a year in straight nominal dollars. In fact, 
it was almost flat through the middle part of the decade until 
1999. Then it grew again, and since 9/11, defense spending shot 
up. Okay. There we have chart number 1. So you can sort of see 
the valley and the floor for a while. Under the President's 
request, it would keep rising to just shy of $650 billion this 
next year. Even excluding amounts for direct combat operations, 
base defense spending next year would be nearly one-half a 
trillion dollars even though there was no longer a Soviet Union 
or any other global superpower for us to deal with, but when we 
look at these figures adjusted for inflation the impact becomes 
clear and the picture becomes a little more in focus.
    Chart number 2, please.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    This chart shows total defense spending in constant 
dollars, including war costs in the past and in the present, 
and it reflects how our defense spending in the 1990s actually 
declined sharply in real terms after the collapse of the Soviet 
bloc and a rapid victory in the Persian Gulf War. That trend 
began to change toward the end of the 1990s, and since 9/11, of 
course, defense spending has shot up dramatically, and again, 
our level of defense spending in real terms is even higher than 
it was at the culmination of the Cold War.
    The point is we enjoyed a peace dividend, but that peace 
dividend was really hollow in the sense that we simply ignored 
the threat that was looming out there. Now we know the threat. 
It is clearly here. We clearly have to deal with it, and we 
believe that--I think most of us believe the first 
responsibility of the Federal Government is to protect the 
country in national security. It is our first responsibility. 
We have a much more dangerous world we are living in today 
where threats come from multiple sources, not just one 
superpower, but with so much money that we are dedicating to 
this primary responsibility of the Federal Government, it is 
all the more incumbent on us to watch how we spend this money.
    By dedicating so much money and so many increases, which 
clearly have a case to be made for them, we have to watch our 
taxpayer dollars, and this is an area where I think the 
Pentagon has a lot of room for improvement, whether it is IG 
reports, whether it is GAO reports, because this is the most 
important function of the Federal Government, the basic 
responsibility, because you have, no matter how you measure it, 
a need to rise up to the challenge and face these threats. 
While all of these taxpayer dollars--rightfully so--are being 
dedicated to these, we have to be ever more vigilant on how 
these dollars are being spent, and we have to make sure that 
this transformation is complete so that our DOD is structured 
toward the 21st century threats and not still hanging onto 
constituencies within the Pentagon and here in Congress from 
the 20th century.
    With that, I want to thank the chairman, and I know in one 
hearing we are not going to get all of the answers to our 
questions, but I think we can get a good start on how we are 
going to establish accountability and how we are going to fully 
transform the Pentagon to mirror the 21st century threats we 
have, and I thank the chairman.
    Chairman Spratt. Secretary England, thank you again for 
coming. We have your written statement. We will make it part of 
the record so that you can summarize it to any extent you like, 
but the floor is yours, and you may proceed. Thank you very 
much for coming.
    Oh, one thing before you do start. I would like to ask 
unanimous consent that all members who did not have an 
opportunity to make an opening statement be allowed to submit 
an opening statement in writing and enter it into the record at 
this point.
    [The prepared statement of Mr. Hensarling follows:]

Prepared Statement of Hon. Jeb Hensarling, a Representative in Congress 
                        From the State of Texas

    Secretary England, thank you for joining us again today to discuss 
the Department of Defense's priorities for 2008. I look forward to 
working with my colleagues to ensure that our servicemen and women have 
all the resources they need for victory. However, I do wish to raise 
concerns today regarding the Walter Reed Army Medical Center.
    The Washington Post has detailed, through a series of articles, the 
squalid conditions and neglect that many outpatient servicemen were 
forced to endure in Building 18. I appreciate Secretary Gates' prompt 
response and I am confident that my fellow Texan Pete Geren will serve 
ably as the acting Secretary of the Army. Yet, this kind of situation 
must never be allowed to happen again. What concerns me most are 
reports that suggest that senior Army medical officers knew of these 
conditions as far back as 2003.
    As Secretary Gates' independent review group moves forward, I hope 
that several important questions are answered. I would like to know why 
the broken outpatient care system at Walter Reed was not reported up 
the chain of command, and if individuals with knowledge of the 
situation that predates recent reports will be held accountable for 
their negligence. I would like to know if the Department of Defense 
plans to investigate other facilities in addition to Walter Reed and 
the National Naval Medical Center to ensure that such a situation never 
happens again. Finally, I would like to know what the Army plans to do 
in the interim to fix outpatient care for those servicemen and women 
that are already in the system. Please address these concerns in 
writing to me as soon as possible.
    Secretary England, I agree with Calvin Coolidge's maxim, ``The 
nation which forgets its defenders will itself be forgotten.'' We have 
an obligation to make this situation right, and ensure that our 
soldiers, sailors, airmen, and Marines receive the care they deserve 
when they return home.

    Chairman Spratt. Thank you very much. We look forward to 
your testimony.

STATEMENTS OF HON. GORDON ENGLAND, DEPUTY SECRETARY OF DEFENSE; 
  ADM EDMUND P. GIAMBASTIANI, JR., USN, VICE CHAIRMAN, JOINT 
  CHIEFS OF STAFF; AND HON. TINA W. JONAS, UNDER SECRETARY OF 
           DEFENSE-CONTROLLER/CHIEF FINANCIAL OFFICER

    Mr. England. Mr. Chairman, thank you, Mr. Ryan and members 
of the committee.
    First of all, thanks for the opportunity to be back. 
Hopefully, the last time we were together was helpful to the 
committee, and we are available, frankly, whenever you need us 
for either private discussions or for any hearing, and so we 
are pleased to cooperate with the committee. I do not really 
have an opening statement because this is our second 
appearance, but I will make just a comment or two if I can.
    You are right. The defense budget has gone up, but it has 
gone up because of threats to our Nation. The Nation, in my 
judgment and, I think, in the judgment of most Americans, faces 
a broader array of security challenges than perhaps ever 
before, as commented here by Mr. Ryan. Just the threat of 
terrorism is obviously a great threat to America. We have been 
attacked right here in Washington, D.C. and, of course, in 
Pennsylvania and in New York. We are still dealing with 
countries like Iran and North Korea with nuclear ambitions and 
their track records of proliferation of support to terrorists, 
and then of course we always have concern about China and 
Russia, and their future paths are not clear, and we do have an 
obligation, obviously, to deter future aggressions. So we do 
have significant investments.
    Also as pointed out, we did have very, very low investments 
throughout the 1990s. As to the comments made about our Cold 
War equipment, I will tell you we actually do not have a large 
amount of any type of equipment. We do not have many programs 
in production today. A lot of our equipment is aging, not 
getting newer. So, if anything, the U.S. military is aging. It 
is not that we are buying a lot of high tech equipment for 
other purposes, and of course, a lot of our expenditures are 
due to the war itself.
    Also, another comment. When comparing to the past, I would 
remind the committee we now have an all-volunteer force, so we 
have members and their families, the spouses and children, and 
obviously the all-volunteer force is vastly more expensive than 
the forces we had in the past. That said, it is also vastly 
more capable.
    So we do have the three requests here before the Congress, 
and that is the 2007 supplemental. It is the GWOT cost in 2008, 
and it is the 2008 budget. Regarding 2008, the last time we 
met, I indicated then that the war costs in 2008--not knowing 
if that is going to be more or less than we have today, we took 
the approach and just set a straight line from 2007, and so the 
baseline for 2008 will likely change either up or down based on 
what is happening on the ground in Iraq and Afghanistan, but 
that was the best estimate that we had in terms of our 
expenditures based on the 2007 level going into 2008.
    So with that, I believe everybody understands the basis of 
what we turned in in terms of these three budget requests.
    Mr. Chairman, what I would like to do is just myself, 
Admiral Giambastiani and Ms. Tina Jonas, answer any questions 
that we can for the committee.
    [The prepared statement of Secretary England follows:]

 Prepared Statement of Hon. Gordon England, Deputy Secretary of Defense

    Chairman Spratt, Representative Ryan, Members of the House Budget 
Committee, thank you for the opportunity to meet today to discuss the 
current defense budget requests. We all share a common objective--to 
protect and defend America, and to take care of our men and women in 
uniform and their families.
    The Vice Chairman of the Joint Chiefs of Staff Admiral Giambastiani 
and the Under Secretary of Defense (Comptroller) Ms. Jonas are here 
with me, and the three of us look forward to your questions.
    Today, America and our friends and allies face a broader array of 
security challenges than ever before. Terrorists have declared their 
intention to destroy our very way of life. Rogue states like Iran and 
North Korea--with nuclear ambitions and track records of proliferation 
and support to terrorists--pose threats to their neighbors and beyond. 
And major states like China and Russia, whose future paths are not 
clear, continue to pursue sophisticated military modernization 
programs.
    The defense budget requests before you will provide our joint 
warfighters with what they need to accomplish their mission of 
protecting and defending America--our land, our people and our way of 
life. Specifically, the budget requests support four major areas:
    <bullet> Modernizing and recapitalizing joint warfighting 
capabilities;
    <bullet> Sustaining the all-volunteer force;
    <bullet> Improving the readiness of the force; and
    <bullet> America's efforts, together with our partners, in Iraq, 
Afghanistan and elsewhere, in the war on terror.
    There are three requests for the Department of Defense before the 
Congress: the President's request for Fiscal Year 2008 includes the 
base defense budget request for $481.4 billion; and $141.7 billion to 
fight the Global War on Terror. The FY 2007 Supplemental Appropriation 
Request for the Global War on Terror is for $93.4 billion. The total 
request is $716.5 billion.
    That is a lot of money by any measure--Secretary Gates has called 
it ``staggering''.
    To put the size of the request in historical context--in 1945, 
toward the end of WWII, the Department's budget as a percentage of GDP 
was 34.5%. During the Korean conflict, it was 11.7%; in Vietnam--8.9%; 
and in Desert Storm--4.5%. Even during the Reagan build-up in the 
1980's, the defense budget was 6% of GDP. Current defense spending--at 
about 4% of GDP--is the smallest proportion ever spent on defense 
during wartime.
    The Department understands its fiduciary responsibility to Congress 
and to the American people to spend their money wisely. Part of that 
responsibility is making sure that the defense enterprise itself runs 
as effectively--and efficiently--as possible. So the Department is 
continually updating, adapting, and improving its processes--including 
decision-making, acquisitions, and auditing.
    A few words about each of the requests before you:
    The FY07 Supplemental covers the costs of contingency operations--
primarily Iraq and Afghanistan--until the end of the Fiscal Year. One 
way to think about it is that these are ``emergency'' costs, brought 
about by the current war effort, which the Department would otherwise 
not have had at this time. This request is based on near-time 
information--with high fidelity. Frankly, the request is urgent--if 
these funds are delayed, the Department will have to start re-
programming, with all the attendant disruptions.
    The FY08 GWOT request provides funding starting with the new fiscal 
year in October. Actual requirements will depend on events on the 
ground in Iraq and Afghanistan--so the Department has used projections 
based on current monthly war costs to determine the numbers. In Iraq--
as Secretary Gates has testified--there should be good indications 
about how well the military strategy is working by this summer, 
including how well the Iraqis are keeping their commitments to us.
    The base budget is what we use to ``man, organize, train and 
equip'' America's armed forces. It is about sustaining the force and 
also investing in future capabilities.
    As we go forward, it is important not to lose sight of the long-
term strategic picture while we prosecute the current war. It is 
important both to fund near-term tactical expenses and to invest in 
long-term deterrence--since it is a lot less expensive to deter than to 
fight and defeat. Finding the balance requires hard choices * * * and 
failing to find it means that the Nation could be at risk.
    The Department's greatest asset is our people. America is blessed 
that in every generation, brave men and women step forward to serve a 
cause higher than themselves. The Department responds by continuing to 
support a high quality of life for our servicemembers. Success in that 
regard is reflected in the Services' ongoing ability to meet recruiting 
and retention goals:
    <bullet> All four Services met or exceeded AC recruiting goals 
throughout FY 2006, and continued to do so through Jan 2007.
    <bullet> In Jan 2007, four of six components exceeded their RC 
accession goals (except USAR, 99%, and USNR, 93%)
    <bullet> In Jan 2007, AC retention remained solid. All but USN met 
their year-to-date missions, and USN expects to meet its goals for the 
full fiscal year.
    <bullet> RC attrition remains well within acceptable limits in all 
reserve components.
    Thank you for your support of our men and women in uniform, their 
civilian counterparts, and their families--for the funding and 
authorities they need to accomplish the mission.

    Chairman Spratt. Thank you very much, Mr. Secretary.
    In my opening statement, I referred to the fact that--and I 
think everyone would agree--we underestimated the gravity and 
the cost and the complexity of the aftermath of the war in 
Iraq, and the question I would put to you this morning is there 
is another element of cost that we have underestimated and 
another factor that we have not sufficiently attended to, and 
that is the impact on soldiers and sailors and airmen and 
Marines who have returned to this country, particularly those 
with head injuries, spinal cord injuries, PTSD, and injuries 
like that, some of which are hard to diagnose but are 
nonetheless real medical problems.
    Do you feel that we may have overlooked that aspect of the 
problem, that dimension of the wars in Iraq and Afghanistan, 
and are we adequately providing in our budget request for 2008 
the amount of money needed to make Walter Reed truly the 
premier Army hospital, to have Bethesda provide the same sort 
of care? You have other military hospitals throughout the 
country and our Veterans Administration facilities, which 
should be under purview. Are you satisfied that we have got 
enough money in our budget to deal with that aspect of this 
problem?
    Mr. England. Mr. Chairman, I would say at this point 
uncertain, frankly. We actually have two kinds of medical 
treatment. We treat over 9 million people in the TRICARE, which 
is the insurance account, and we have about 4.5 million in what 
we call ``primary care'' for military and their families, so 
Walter Reed falls under the latter category. In total in the 
budget, there is about $40 billion, so I would say when we put 
the budget together, you know, our best estimate was, yes, that 
handles all of the care we need. However, based on past events 
here in the past month or in the past few weeks, obviously 
there is some question if we will need to shore up some of 
those accounts, and in fact we are looking right now in the 
2007 supplemental as to possibly moving some of that money 
around just to make some money available in case we need to do 
something to Walter Reed in the near term based on the findings 
of these independent commissions and the work going on at 
Walter Reed.
    So know that we are committed to do whatever we have to do, 
and if we have to reprogram or move money or, frankly, ask for 
money, we will not hesitate to do that. I would expect that, 
within the monies we have, hopefully we can move money and 
accommodate whatever we would have to do based on whatever the 
findings of the various studies and commissions are at Walter 
Reed.
    I am looking at the whole medical health program. So I 
would have to say uncertain based on what we have all learned 
here in the last month and weeks.
    Chairman Spratt. Could you give us an idea of what you 
think may have to be reprogrammed to meet the problem that is 
now emerging?
    Mr. England. Well, near term--I mean people are going to be 
looking at this to understand, and right now, of course, the 
only thing that has come to light is potentially the outpatient 
care issues at Walter Reed. That is all that has really been 
identified. Now, both the Secretary of Defense and I know the 
services under the President are all putting together study 
groups to look not only at that but at the broader range. Near 
term, I would expect that this is in the tens of millions of 
dollars if we need to address something immediately at Walter 
Reed, and we can accommodate that just by, you know, 
reprogramming our own funding, but if it is beyond that, I mean 
if there is a total redo of some sort in terms of our medical 
capability, then obviously we would have to reexamine that when 
those reports come in, and that is just unknown at this time, 
Mr. Chairman.
    Chairman Spratt. Let me ask you about the anticipated 
amounts to cover the military operations in Iraq and 
Afghanistan.
    Thus far, we have appropriated about $503 billion for those 
two engagements plus operations; namely, the North American air 
defense and other aspects of enhanced security stateside. This 
year's budget for 2008 includes a substantial increase, a 
supplemental of $145 billion on top of $170 billion that will 
be provided for 2007--$70 billion already provided, $100 
billion to come when the supplemental for this year is passed. 
That is a rather high level of expenditure in light of the fact 
that in 2009 you anticipate or you insert a plug number of $50 
billion for the cost of Iraq, Afghanistan, North American 
security, and enhanced security for that particular year.
    Do you think that $50 billion is adequate? In the outyears, 
2010, 2011 and 2012, there is no adjustment at all. Do you 
think that is realistic?
    Mr. England. Mr. Chairman, I would expect there is some 
cost. Now, here is the dilemma we have in terms of estimating 
cost. In 2008, the GWOT cost--I do not want to call it a 
``supplemental,'' but I guess it is, but the GWOT cost that was 
turned in with the budget, itself, as you rightly indicated, is 
$141.7 billion. Now, to some extent, that is a plug because it 
is an extension of the 2007 number, and of course events are 
changing on the ground as we sit here in both Iraq and 
Afghanistan. So we took an extension of 2007 for 2008, not 
knowing what the circumstance on the ground would be in both 
Iraq and Afghanistan. So, as I indicated, that number will 
certainly change somewhat, either up or down, and in looking 
out into the future--I mean, in the past, the plug was put in 
in past years for $50 billion, even last year with the budget, 
so that has sort of been what we have done each year in the 
past on this. I think it is a number not knowing what the 
results on the ground will be, but they will be refined as we 
know more about it. But I would expect there is going to be 
some activity both in Afghanistan and in Iraq for some period 
of time, so I would not expect that will be zero, but I would 
also expect, as we get closer to that, that we would give some 
realistic estimate.
    Chairman Spratt. Well, our objective is to balance the 
budget by 2012, but in the years 2010, 2011 and 2012, we do not 
have a number from the Department of Defense for what you think 
is a reasonable ballpark estimate based on most likely 
scenarios about deployments in Iraq and Afghanistan. CBO has 
decided, in doing an outyear forecast over a 5- and 10-year 
period of time, you have got to have something to stick in 
there, to put in those particular slots, that approximates 
reality. There are conventional forecasting calls simply for 
repeating the supplementals, and yet they think maybe $145 
billion--let us hope--is too high a supplemental to repeat 
indefinitely for the foreseeable future. We hope it will taper 
off and come down, and CBO, trying to be realistic, makes that 
assumption, too. They have one particular model for assuming 
the cost of outyear deployments. It is based on a scenario that 
assumes that the number of deployed troops in support of Iraq 
and Afghanistan will gradually drop off from 220,000-225,000 
today to a steady state of about 70,000-75,000 in 2013. If 
future costs continue to be split 85 percent to Iraq, 15 
percent to Afghanistan, the war cost under this scenario, 
according to the CBO, could be $764 billion, which is $514 
billion more than is captured in the President's budget.
    How does that particular estimate strike you? Is that out 
of the ballpark or is that in the ballpark for what we are 
likely to encounter in those years for which there is either 
not a full number, 2009, or no number at all for the 
supplemental costs in 2010, 2011 and 2012? Is $764 billion for 
that period of time a reasonable estimate for what we are 
likely to incur?
    Mr. England. Mr. Chairman, I mean I just have no idea. I 
mean they have some set of assumptions. I mean I do not know 
how you would--I do not know how they can possibly end up--I 
mean maybe, as you said, they put a plug number in, but here we 
are trying to project for 2008, and we do not know what the 
number is for 2008. I mean we just projected for 2007, so I do 
not know how you would estimate 2009, 2010 and 2011 at this 
point in time. I guess people can put a plug number in.
    Chairman Spratt. Well, how does the Defense Department--
since the advent of program budgeting haven't you done a 6-year 
defense plan or set up a 5 future years defense plan that 
encompasses this year and 5 future years, and in doing that 
don't you have to do scenarios and do takeout costs--takeoffs--
based on those scenarios?
    Mr. England. Well, we do, and we typically base it on a 
certain size of the force for our normal operations and 
whatever our procurement budgets are and our normal O&M 
operations, but that is not like being in war, so I mean they 
are all peacetime numbers, basically, that we put in our 
budget. So it is training; we know how many steaming days, how 
many MOs, you know, fuel costs; we know how many people are in 
the military; we know our personnel cost, et cetera.
    Chairman Spratt. And all of those indices are up and 
trending upward, are they not?
    Mr. England. The size----
    Chairman Spratt. Flying time, steaming time, tank miles, 
all of that is trending upward and does not show any signs of 
near-term decline. Surely, you have got----
    Mr. England. It is up. Yes, sir. It is in our base budget. 
It is up. In addition, there is the straight line projection 
for the war cost in 2008.
    Chairman Spratt. Well, surely in doing the Future Year 
Defense Plan, you have made some assumptions about the 
deployment of forces. You do not just project these things into 
thin air when you have got a certain reality, and the reality 
is we are heavily engaged in two combat situations right now, 
and we have a global war on terror. That is the main thing. 
Isn't the Defense Department doing certain scenarios and doing 
cost takeoffs from that to be inserted into a realistic 
theater?
    Mr. England. Mr. Chairman, we have increased the size of 
the force, so you will see the increased size of the force, 
65,000 for the Army and then another 27,000 for the Marine 
Corps. So that growth is included, and that is in our base 
budget, and the normal training, equipment and deploying of 
those forces is all included in the base budget. So the base 
budget is reasonably straightforward in estimating those 
expenditures going forward along with our acquisition and our 
research and development program and our personnel costs. So we 
know that pretty well going forward, but the war costs--I mean 
how much will we be spending in the war, to what level of 
activity we are going to have in the war, how much equipment 
will be lost, I mean that is extraordinarily hard to predict, 
and that has, by the way, been always the discussion about like 
a 2007 supplemental and trying to put things in the base 
budget. The advantage of the supplemental has been to us that 
it is a near term and we can do that with a high degree of 
fidelity. We are looking forward. We are just literally sort of 
guessing the environment. So I think it would be very, very 
hard to go estimate future war costs. Obviously, there are some 
costs there, but in trying to estimate those costs, you just 
have to pick a set of assumptions, and they would merely be 
assumptions that could be either right or wrong, and I am not 
sure how one would go about that with any degree of fidelity.
    Chairman Spratt. Let me ask you about weapon systems 
procurement. How many systems, if you know, are in the SAR, or 
in the Selected Acquisition Reporting system?
    Mr. England. I believe it is all of our--pardon me. I 
believe it is all of our major systems. Yes, ACAT-1-D. So our 
major acquisition programs are in the SAR, Mr. Chairman.
    Chairman Spratt. Do you have a percentage increase for 
these programs, a current program estimated cost as opposed to 
the baseline cost when the program was approved for advanced 
development and production and procurement and went into the 
SAR reporting system?
    Mr. England. Well, the SAR changes--pardon me.
    Mr. Chairman, the SAR changes depending on, for example, 
how many units we decide to buy. So those numbers will change 
dramatically as programs mature and you go into production and 
you change both your schedules and your acquisitions.
    Chairman Spratt. How about on a program unit cost basis?
    Mr. England. We do----
    Chairman Spratt. Do you have any estimate of how much the 
SAR system subject to the SAR reporting have increased on a 
program unit cost basis from the date of the initial estimate?
    Mr. England. Yes, we do know that. We know that on each 
program, and eventually that is what makes up the SAR.
    Chairman Spratt. Have you got an overall percentage 
increase for those?
    Mr. England. I guess that is--I mean we can get it. It 
depends on over what period of time, so there is a baseline 
each year established----
    Chairman Spratt. A baseline to the most recent reporting 
period, which I guess would have been December 31st. I am 
talking about SBIRS, for example--the space-based infrared 
satellite system--which is a replacement for DSP, the increase 
on a program unit basis. There are only a few of those, a 
handful or a dozen or so, if that, 315 percent. The F-22, 188 
percent. Not all of this happened on your watch. I will say, 
for both of those programs, I think their origins were before 
your administration, but what are we doing to rein in, police 
and control the cost growth in these major acquisition systems?
    Mr. England. Let me first turn it over to the Vice Chairman 
because across the board, Mr. Chairman, there is a lot of 
effort underway in terms of all of our processes, methods in 
DOD because we are aware of the cost increases, some, frankly, 
predicted because quantities change and programs change, some 
just cost growth. So we are doing a lot of process changes, and 
a lot of that falls into the requirements area, and so, if I 
can, let me turn it over to Admiral Giambastiani because that 
is where the requirements are determined.
    Chairman Spratt. Admiral.
    Admiral Giambastiani. Mr. Chairman, first of all, I am 
going to speak to you as what is called a Chairman of the Joint 
Requirements Oversight Council. It is a group of which, as I 
said, I am the Chair, and the four Vice Chiefs participate, the 
four Vice Chiefs of the Services. We set and validate military 
requirements for systems.
    One of our problems in the past--and it continues today--is 
that sometimes we in the military set unrealistic requirements 
which, frankly, cost the taxpayer and cost us programmatically 
more than we should have signed up for. There are a variety of 
reasons for that. Some of them could be, for example, that we 
have technologies out there that we are trying to chase because 
they will give us a tremendous capability difference.
    So what we have done in this inside the JROC is to look at 
cost drivers across all of these. I do not want to get too 
technical here, but I could give you chapter and verse on this 
in a very long answer, but we have gone after cost drivers. We 
have looked at technology readiness levels. We have looked at 
what can be delivered within cost and schedule limits to 
provide additional capability. Let me give you a couple of real 
world examples of where we have gone back and looked at 
programs where we had a requirements problem.
    One of them is the Joint Tactical Radio System. When I 
arrived at the Pentagon 18 months ago, we were faced with a 
potential Nunn-McCurdy breach on this program. The cost was 
going to rise from about $3 billion to an estimated $6 billion 
for the whole program. This is a very important program for the 
Department of Defense and for our military forces. It gives us 
a networking capability to network all of our forces. We went 
back and did a requirement scrub. We looked at the program, and 
we actually kept it within its $3 billion cost estimates, and 
we went from 33 separate wave forms that were required down to 
8. Now, what does that mean? We could probably meet 80 percent 
of our requirements with these 8 wave forms, and to get to the 
33 total it would require a substantial amount of money and a 
lot of time, plus the technologies were not available. So we 
have looked at these cost growths. We have looked at risk 
factors, and we have tried to contain them inside the JROC 
side.
    We also are trying to bring together in all of these 
communities acquisition requirements and resources, all of us 
together in each of these forums so we are not independently 
looking at what a program will do, and Ken Kreig and myself as 
the Cochairman of the Defense Acquisition Board have brought 
this into play with a repeated number of programs that we have 
been reviewing. The Deputy has been very supportive of these 
efforts, and we have been able to rein in a number of other 
programs, a weather satellite program where we had considerable 
growth, and we changed the requirements as opposed to holding 
them steadfast that it was the Holy Grail we had to chase.
    So what I wanted to let you know is that we have been 
working very hard here over the last 18 months, since the 
Deputy and I have been in office, to make sure that we can 
constrain cost growth on these programs and get to the problem 
early.
    One last comment I would give you on the JROC. There are 
congressional requirements for Nunn-McCurdy breaches on all 
programs that I have already spoken to. We have instituted in 
the JROC a requirement for the services and agencies who are 
building programs to come to the JROC if there is a 10 percent 
cost increase and talk to us about requirements before it is 
too late in the process to make a difference in what we are 
buying and what we are building.
    Mr. England. Mr. Chairman, if I can add also, there has 
been, I believe, like 120 studies in terms of how to improve 
acquisition in the Department of Defense, and there have been 
two of them on my watch, frankly, and our conclusion, having 
gone through literally one of them, was to go through the prior 
120 and pull out all of the issues and make sure we understand 
them.
    Our conclusion is that it is primarily a process issue in 
the Department of Defense. That is, we do actually get to 
control this either by how we set the requirements or how we do 
the acquisition or how we deal with our supplier base. So we 
have major efforts, and we just turned in a report to the 
Congress. We have major efforts in the Department of Defense in 
terms of how do we improve our processes within the Department 
of Defense to get a better return on our investment in our 
acquisition area.
    That said, I will tell you that it is very difficult. 
Everything we deal with is pretty much advance technology, and 
therefore, I mean it is a hard environment for us, but we can 
do better and we are working to do better in this regard.
    Chairman Spratt. Just two final questions because I am 
taking up all this time with these things that I think are 
necessary for us to cover. Both are with respect to additional 
costs. One is the recent decision to surge the troop level in 
Baghdad and to conduct intense urban operations within the City 
of Baghdad, which requires 21,500 combat troops. CBO has said 
that that 21,000 does not include a full complement of support 
and logistical backup support troops.
    Number one, is that correct? Number two, what is the 
overall cost of this latest strategy, this surge strategy, 
including the complement necessary to provide adequate support?
    Mr. England. Mr. Chairman, the CBO estimate, I believe, was 
like 35,000 troops or something like that above the 21,000. It 
was an extraordinarily large number. We did not agree with that 
number. When the Chairman testified for the 21,000--when the 
Chairman and the Secretary of Defense testified for the 21,500, 
they said that it was 21,500, but it could be 10 or 15 percent 
higher in terms of added support troops, and that is likely the 
case. I mean our estimate is we will be above the 21,500 by 
about 10 or 15 percent. Now, also, there are requests in the 
field--I mean the war is a dynamic. It is not something you can 
estimate everything every day going into the future, so the 
commanders on the ground always have different requests coming 
into the Department of Defense, and we do have some requests 
from the commanders in the field--General Petraeus--but those 
numbers are still relatively low. I think the maximum of his 
request, not all validated, is still less than about 7,000 
troops. So, at this point, our expectation is the number of 
support troops could go above 21,500 by about 4,000, maybe as 
many as 7,000 if the commanders on the ground request and they 
are all validated, but it will be much lower, in our judgment, 
than what the CBO estimate is. So, while there will be some 
variation----
    Chairman Spratt. Can you give us an idea of costs with the 
support troops included?
    Mr. England. Yes. If you add those troops and you add 
whatever else we know is being asked for at this time--I will 
say validated at this point--it is somewhere over $1 billion.
    Chairman Spratt. That is between now and September 30th?
    Mr. England. Yes, between now and September 30th, and that 
is the only--and by the way, the only costing for the plus-up 
for the 21,500 is until October 1. In other words, there is no 
funding in the 2008 budget. We did not fund anything. The 
Secretary of Defense's view is that we will know shortly, and 
certainly by this summer we will have a very good idea of how 
the plus-up plan is working in Iraq, and therefore we have not 
funded anything in the 2008 budget for that plus-up, so----
    Chairman Spratt. Now, the General was quoted in the 
Washington Post on February 16 as saying that the increase of 
17,500 Army combat troops is only the tip of an iceberg and 
will potentially require thousands of additional support troops 
and trainers. Is he misquoted there?
    Mr. England. I am not sure what the 17,500 number is, and I 
do not know what the General was referring to. I know that if 
you look at all of the requests we have in the Department of 
Defense, the total requests at this point is 4,000 to 5,000. 
There is one other request for some aviation assets, but they 
have not been validated by the Joint Chiefs. So of everything 
that I know that has been requested, the number in terms of 
support troops is about 7,000, but those that have been 
validated total about 4,000 troops, and that is a little over 
$1 billion, but our expectation is we would not ask for new 
money. I mean, for the purposes of the budget, we would just 
reallocate to cover those funds.
    Chairman Spratt. One final question.
    Admiral Giambastiani. Mr. Chairman, if I could, I would 
like to add that I think the Deputy Secretary has accurately 
described the requests that are currently outstanding.
    Chairman Spratt. One final question.
    As to the replacement, repair, refurbishment of equipment 
that has been badly damaged, worn out or otherwise abandoned 
and destroyed in the battle theater, these costs are fairly 
substantial. Could you give us just some ballpark notion of 
what the reset expense is going to be this year and next year 
and into the foreseeable future?
    Mr. England. Do you have the specific numbers?
    Ms. Jonas. Yes.
    Mr. Chairman, we have in the supplemental--in the 2007 
supplemental, we have included $13.9 billion. That would bring 
the total, given what was provided in the Title IX funds to 
2007, to $37.6 billion, and we have an equal amount requested 
in the 2008 GWOT request.
    Chairman Spratt. $13 billion? $14 billion?
    Ms. Jonas. $37.6 billion for the entire year of 2008, and 
for 2007, the amount pending before the Congress right now in 
the supplemental is $13.9 billion. If you add that to what has 
already been appropriated for 2007, you come up with $37.6 
billion.
    Chairman Spratt. And that amount has been requested for 
2008 as well then?
    Ms. Jonas. Yes, sir. Uh-huh.
    Chairman Spratt. And is part of it in the supplemental? Is 
all of it in the supplemental?
    Ms. Jonas. The $13.9 billion is requested in the 
supplemental. For 2008, we have got an OA GWOT request that 
covers 12 months.
    Chairman Spratt. So some of it is in the supplemental, and 
some of it is in the base budget.
    Ms. Jonas. Correct, sir.
    Chairman Spratt. Going forward, what is the likely expense 
there? I will say that the Commandant of the Marine Corps and 
the Chief of Staff of the Army told the Armed Services 
Committee that if we stop tomorrow you will still have probably 
3 years, maybe 4 of expenses at this relative range to catch up 
with all of the equipment problems.
    Mr. England. Okay. I believe we have said--I am surprised 
at the 3 or 4 years. The discussions that I have had in our 
planning is, once the war ends, there are 2 years, and those 2 
years are in the order of $15 billion to $20 billion a year, so 
maybe that is 3 or 4 years, but I would expect a residual 
amount is probably about right, Mr. Chairman. So it is probably 
$30 billion, maybe $40 billion, again depending on the war 
itself, but there will be a residual cost once the war ends of 
all of the equipment still in country to come back and be 
refurbished and reset.
    Chairman Spratt. Okay. Thank you very much.
    Mr. Ryan.
    Mr. Ryan. I want to ask a couple of questions about the 
supplemental request.
    You have two F-35 Joint Strike Fighters in your 
supplemental request; is that correct, Mr. Secretary?
    Mr. England. Yes, but frankly, Mr. Ryan, we are 
reconsidering that. I mean we had some feedback from this 
committee and from other committees, so we are looking at that, 
and as I said before, there are some other requests we have. 
For example, I just mentioned this over $1 billion for, you 
know, the support. So we are looking now at perhaps 
restructuring that because it is a valid point. I mean they do 
not show up in time to affect a war.
    Mr. Ryan. That is why I was going to ask the question. When 
are they even going to be ready?
    Mr. England. Well, they are ready in about 2010.
    Mr. Ryan. 2010?
    Mr. England. But nonetheless--I mean there are lower 
priorities and other things, so we would defer those, but I do 
want to comment that there is a principle that is very 
important here, and that is, as we lose equipment and we are 
not buying the old models, we do need to recover the cost of 
the equipment lost, and our practice today is to buy whatever 
is in production. In the case of the airplanes----
    Mr. Ryan. The F-16s are still in production, are they not?
    Mr. England. But not an Air Force version, so you have to 
go back because we are not buying F-16s for U.S. Military 
today. They are all international sales, so you would have to 
go back and build a unique model for literally one or two 
airplanes, which would not be reasonable. So we try to cover 
what I call either the ``loss'' or the ``accelerated 
depreciation cost,'' recover the cost so we can reinvest it.
    Now, if we do not do that, it is true it will not affect us 
this year or next year, but at some point in the future, we 
will be short equipment, and we will have another problem in 
terms of our asset base. So there is a principle that is 
important, but we can reallocate and reprioritize, and we are 
working to do that right now. So I expect because of other 
pressing needs we will move those to the bottom of the priority 
list, and we will put other needs in place of them.
    Mr. Ryan. Yes, I would encourage you to do that. I 
understand the principle. It is a logical principle, but it is 
obviously not something that you are going to get into the 
production and what we would consider as crossing the threshold 
as being relevant in the supplemental.
    You also had five C-130s in the supplemental request. Have 
we lost any C-130s? Have we lost any C-130s in the last year?
    Mr. England. I believe we have lost, but we have also been 
using them at a much higher rate. So, again, this is the 
accelerated depreciation. However, this falls in the same 
category. Basically, other than the helicopters and UAVs, all 
of the fixed-wing airplanes we are now looking to move out and 
reprioritize what is going to be new in the 2007 supplemental.
    Mr. Ryan. I would encourage you to do that because we are 
looking at what should really be on the base side of the budget 
and what ought to be in the supplemental to really measure the 
war costs, and maybe our line of definition is a little 
different than yours, but I would hope we err on the side of, 
if it looks like it ought to be in the base, it ought to stay 
in the base and not in the supplemental.
    Mr. England. But help me here, Mr. Ryan, because what 
happens is, when we go to war, I mean we fly those C-130s maybe 
10 times the hours that we would in peacetime. So, at the end 
of the war, we have a whole lot of C-130s that are now near the 
end of life that need to be replaced because of the war, so 
they really are war costs, and again, they are costs that need 
to be recapitalized at some point, so----
    Mr. Ryan. I understand that, and I know with BRAC you have 
got more coming in. Heck, you have got a bunch coming from 
Milwaukee, you know, in the hope that you are going to use them 
that are from the 1980s. You know, we flew on 1963 vintage C-
130s 10 days ago in Baghdad, so we know you are using old 
stuff, but the point is that that is something, from my 
perspective, that is really base spending. If a Humvee or a 
Stryker gets, you know, hit by an IED, that has got to be 
replaced in the supplemental. That is totally legitimate. If a 
1963 C-130 is getting worn down because it is flying more, you 
know, I would think that that is something that you could 
better prepare for in the base than in an emergency 
supplemental, and knowing that you have more C-130s coming into 
your pipeline because of the way the BRAC is working, I would 
just encourage you to take a look at maybe pushing some of that 
stuff back into the base budget. Especially if we are going to 
come up with more money for the surge, hopefully that can be 
offset with some of these other things that you have in the 
supplemental.
    I just simply want to put that out there for you because it 
is much easier to pass a supplemental here in the House if it 
is really truly supplemental, if it is truly emergency spending 
for the war and not perceived as base spending irrespective of 
a very legitimate principle you just articulated, but I just 
wonder sometimes.
    I wanted to go on to one more thing because I want to stick 
to 5 because I know a lot of guys here have to ask questions 
and women as well. I did not mean it in that way there. Walter 
Reed.
    Chairman Spratt. Do you want to restate that?
    Mr. Ryan. Yes.
    A lot of members--excuse me. I saw Betty over there. A lot 
of members have questions.
    Walter Reed. Look, this is on the top of everybody's minds. 
We have seen the appalling cases on television. I think just 
about every one of us has probably gone up there ourselves. You 
know, I go to the Malone House and the hospital, and we have 
seen good quality care, and we have gotten reports from 
constituents, but we have also seen just these appalling 
reports.
    Please tell us what exactly is being done now, and where 
are you on all of this? We have seen a lot of changes in the 
last week. Where are we?
    Mr. England. Mr. Ryan, I will tell you. I mean, obviously, 
the simple things, cleaning up rooms and fixing rooms and all 
that, that is straightforward. It probably has been done. The 
question is really more fundamental than that, and that is 
specifically how do we deal with outpatients, and are we doing 
that adequately. I think the conclusion is--and it is obvious 
we are not doing that adequately. I mean it is unacceptable. 
The Secretary said that. You know how the Secretary feels about 
holding people accountable. So that is unacceptable and will be 
fixed, and both the Secretary, as I commented, and the 
President and within the services all have independent teams 
now looking at this, so whatever issues they uncover, I mean, 
we will fix. We will fund. We will fix because it is 
unacceptable. We want the absolute best care for our men and 
women who serve and their families. So I mean there is work to 
be done in this regard to find out, you know, exactly how deep 
this problem goes, but however deep it goes it will be fixed. I 
mean there is no question about that. We will do whatever is 
required and are committed to do it from the President down 
into the Department, into the services themselves. So we will 
do whatever is necessary and take those steps and do it 
quickly.
    Mr. Ryan. Well, I have got several other questions, but I 
am going to yield just in the interest of time to let the other 
members ask. Thank you.
    Chairman Spratt. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Secretary, I was glad to hear you just say that you and 
the Pentagon will do whatever is required to fix the problem. 
My guess is that is going to require you to reverse some of 
your prior testimony today because what we heard at Walter Reed 
yesterday was that due to the Base Closing Initiative Walter 
Reed is about to be shut down, even the fine hospital, the 
inpatient facility, that no one has questioned the care of, and 
that patients will be transferred to a larger, new facility 
somewhere on the Bethesda Naval Hospital campus, and that all 
sounds fine in theory, although General Kiley said that he had 
recommended against the closure. He warned us it would cost 
billions of dollars; he did not know where the money was going 
to come from, and I hate to think that we are going to be 
asking veterans to sacrifice a known and excellent facility in 
favor of something that is unknown, unbuilt and, as far as we 
know, unfunded.
    The disconnect is this. You told Mr. Spratt, our chairman, 
that the Pentagon and the administration still refuse to 
estimate war budgets in the outyears. You are fine estimating a 
base budget, but you want to be precise and you do not know 
what wars will cost. So even though we are 5 or 6 years into 
this one, you refuse to plan for the outyears.
    Well, how are we going to be planning for a new veterans 
hospital for the casualties of war 2, 4, 6, 8, 10 years hence 
unless you have some estimate of the casualty flow and their 
needs? Because an elaborate amount of planning is involved, and 
if the Defense Department refuses to plan and disclose those 
numbers to us, then you force agencies like the Congressional 
Budget Office and others to come up with their own estimates, 
and they are not the Pentagon--you presumably know better than 
we do--and in order to make sure that our veterans are cared 
for, that our troops are cared for, we have to have some sort 
of outyear estimates of war costs, and yet judging from the 
President's budget, a couple years from now everything is over 
and there is no more war even though the President himself has 
called this the long war.
    You know, I think our job is to come up with a 5-year 
budget, and we are not even being supplied with 5-year war 
numbers by the Pentagon. So we have to solve this disconnect if 
only for the sake of the troops.
    Mr. England. A comment first about the BRAC.
    Mr. Cooper, the BRAC money is in the budget, and the plan, 
which had basically all of the support, I believe, in the 
Pentagon, was the military was to build a new hospital at 
Bethesda, which is very nearby, but of course--you know, I mean 
Walter Reed is an old building. So the objective was to build 
another facility attached, to refurbish and rebuild a lot of 
new physical plants at Bethesda, and at Bethesda we also have 
the medical school where all of our doctors train, and NIH is 
right across the street where they spend tens of billions of 
dollars in medical research. The whole objective was to have a 
world class, one world class facility for all of our men and 
women who need medical care. So rather than have two 
facilities, each one partially used and spread out, it is to 
have one world class facility in terms of medical research and 
tie it in with NIH and everything we could.
    So that was the objective, and the plan is that that would 
be transitioned in 2011, so we would actually start building 
the facility, you know, as part of this planning process. I 
mean it all has to be finished by 2011 in BRAC, but the funding 
is in there to do that, and so all of that planning is in 
place, and that is how we would proceed, and I understand 
people are going to take a look at that again, but the 
rationale I think, at the time at least, was sound.
    Mr. Cooper. What is the casualty flow estimate for 2009, 
2010, 2011, and 2012?
    Walter Reed today is currently overcrowded. It is not a 
half-empty facility. We need to know what the Pentagon's plan 
is for the long war, and you should share that with this 
committee and the American people. What is the casualty flow in 
those outyears that you are expecting to be able to serve at 
these hospitals?
    Mr. England. Okay. I do not have that, but I will give you 
that, which is the basis of the new facility that would be 
built at the Bethesda location. Where we now have the Bethesda 
Naval Hospital, that would be the National Walter Reed. It 
would be the Walter Reed National Military Hospital. Again, I 
will get you the specifics, but a lot of work went into that 
for at least a year's work to prepare for that and to make sure 
that we had, you know, the right approach. But again, I mean, 
based on recent events, all of that will be looked at again, 
but it was a sound basis in terms of those decisions.
    [The information follows:]

    The planning to satisfy the base realignment and closure 
requirement to build new medical facilities in the national capital 
region included an analysis of potential requirements for bed capacity, 
using historical numbers, an understanding of the capacity of the 
Military Health System in total, and a surge capacity factor. These 
determinations show that the proposed Walter Reed National Medical 
Center at Bethesda and the new facility at Fort Belvoir will meet the 
requirements for the patient population in the national capital region.
    From a planning perspective, we do not project casualty flow data 
in the fashion implied by the question. Instead, we use Service-
provided casualty rates to generate future medical planning 
requirements within operational scenarios. Wartime medical force 
capabilities are determined using the Medical Analysis Tool and 
compared to the current force structure to identify capability 
requirements.
    Force size, time, scenario, posture, medical threat, and medical 
planning factors are entered into the casualty generator model 
(currently the Joint Integrated Casualty Model) which produces 
population at risk, time, unit locations, and casualty (battle and non-
battle) data that is then provided to the Assistant Secretary for 
Health Affairs for use. Alternatively, output from the Analytic Agenda 
can be provided for studies focused more in the near term. The Services 
then validate the analytical results/models.

    Mr. Cooper. I see that my time has expired, Mr. Chairman.
    Chairman Spratt. Thank you, Mr. Cooper.
    Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman.
    Secretaries and Admiral, thank you for being here today. 
Let us change the subject just a little bit.
    I know in the current budget there is an increase of troop 
strength by about 92,000, Mr. Secretary. I have had some 
concerns over the years of whether we had enough active duty 
soldiers, sailors, airmen. We are relying more and more on the 
National Guard and Army Reserve and all of our reservists.
    Is this number, the 92,000, enough? I know there is news 
about the possibility of funding another Stryker Division in 
the National Guard. Can you comment on both of these two areas?
    Mr. England. Well, I mean, again, Mr. Barrett, I guess 
events will dictate if it is enough, but based on the 
projection today in terms of brigade combat teams and based on 
the best estimate of our combatant commanders and what they 
foresee for the future, the 92,000 appears to be the right 
number. I mean that is how we got to that number. There are 
also some increases, also small, for the National Guard and the 
Reserves--the Army, National Guard and Reserves. I do not see 
that we have a problem, frankly, neither with the Air Force or 
Navy. The Navy has actually come down in manpower. The Air 
Force is planning to come down in manpower, and of course the 
Air Force Reserve--or Guard, I guess. It is Guard--is an 
integral part of the service itself. I mean they fly regularly 
as part of the Air Force itself.
    So I will be happy to open this up to the Admiral because, 
again, it really is a military decision in terms of sizing, but 
all of the work last year led to that. We had various options 
in terms of sizing. We finally ended up with the 92,000 total 
growth, the Army and Marine Corps combined.
    Admiral Giambastiani. From the overall numbers, as the 
Deputy has stated and as you have mentioned, it is 82,065 for 
the Army over a period of about 5 years, 27,000 for the U.S. 
Marine Corps over a period of about 5 years, but what also 
exists inside this is an increase in our Special Operations 
Forces. For example, the President's budget for 2008 has about 
5,800 within that 92,000 that will be an increase in Special 
Forces, and with the type of conflict we are seeing today and 
that we could project out into the future, growth in Special 
Forces/irregular warfare is very important.
    So what I would say to you is these are our best estimates. 
I think both the Commandant of the Marine Corps and the Chief 
of Staff of the Army are comfortable with this. Both the 
chairman and I are comfortable that this is about right and 
that, within that number, having some of these specialty units 
created is very important. So there is movement not only on the 
top line but on what is inside it.
    Mr. Barrett. Okay. Let us hold on the Stryker question. Let 
us get to a program that is important to South Carolina and to 
the Nation, the MOX Program, which is taking some of this 
weapons grade plutonium and taking it off the market and 
turning it into fuel and mobilizing it.
    Where are we, Mr. Secretary? I know that we have pushed it 
from the South Carolina delegation, the Georgia delegation. We 
are getting some pushback in the House. Do you have any idea 
whether the Department of Defense is involved in working with 
this MOX Program at all?
    Mr. England. Mr. Barrett, it does not sound familiar. It 
just does not ring a bell with me, so I will have to look into 
it. Maybe it is an energy program. I am just not sure. So I 
will have to answer back to you. I am just not knowledgeable of 
the program, sir.
    Mr. Barrett. Okay. I know it is primarily done by the DOE, 
but there has been some involvement with the Department of 
Defense, and if we could get some push from you guys on this 
program, that would be fantastic. If you could get back with me 
on that, that would be great.
    Mr. England. We will get back with you.
    [The information follows:]

    The Mixed-Oxide (MOX) program is a Department of Energy program, 
but the Department of Defense maintains an active interest in the 
strategic material reserve, which includes weapons grade plutonium, the 
feedstock for the MOX program. DOD and DOE work together via the 
Nuclear Weapons Council (NWC) to assure interagency agreement on the 
sustainment and disposition of the reserve. Material that is in excess 
of the strategic reserve can be jointly released and would be available 
for the MOX program.

    Mr. Barrett. Okay. One last, quick question. I do not have 
a lot of time.
    Equipment. I know we are chewing it up left and right. Some 
of it is being destroyed. Some of it is just getting flat worn 
out. Are we keeping up with the equipment replacement, making 
sure that what we have got is up and running and all of that 
good stuff?
    Mr. England. We are now, although I have to tell you, Mr. 
Barrett, that we fell behind because we did not have any 
substantial money in the supplemental for the reset until the 
2005 budget. So we were fighting the war, and we did not have 
significant funds, maybe $5 million or so, and then we started 
putting substantial funds in in 2005. So, at that point, the 
result was we ended up with damaged equipment sitting at the 
depot doors but not enough money to put them through the 
depots. Now, since then, frankly, we have asked for--and the 
Congress has been very supportive, and as Tina said, I believe 
that total now is--what?--$63 billion, Tina, total?
    Ms. Jonas. Yes. We have invested $63 billion so far in 
addition to what we are requesting now.
    Mr. England. So now a lot of money has flowed, and so the 
equipment is now in the system and flowing out. That has left 
some shortages while it flows out the back end of the depots in 
terms of the refurbishment, but I believe the funding is in 
place now. You know, the organization is in place. It is just a 
question of pushing that equipment through the depots.
    Mr. Barrett. Fantastic.
    Thank you, Mr. Chairman.
    Chairman Spratt. Thank you, Mr. Barrett.
    Mr. Becerra is not here.
    Mr. Doggett.
    Mr. Doggett. Thank you for your testimony.
    While the number of American troops in Iraq today is about 
139,000 and escalating, the number of troops from other 
countries, I believe, is about 14,000 and shrinking. The 
British have, of course, announced that they are beginning a 
phased withdrawal.
    What is the best estimate that you have of the number of 
troops from other countries that will be deployed in Iraq at 
the end of this year?
    Admiral Giambastiani. If I could, Congressman, I would just 
say that that number that you are quoting is fairly accurate. 
However, the trend actually is now going to go back up. We see 
this go up and down. It has been going down for a period of 
time in small numbers, but the Georgia government has decided 
to--this is not the State of Georgia but Georgia, the country. 
It has decided to put a brigade combat team into Iraq, so this 
will be--I do not know exactly the size of their brigade, but 
it is probably somewhere between 3,000 and 4,000 people, and 
that will be a big addition, if you will, to come into Iraq. 
There are some other countries that we typically do not talk 
about--they have asked us not to talk about them publicly--that 
contribute to this operation, and I would say that those 
numbers are not counted for. They are small, but they are in 
there.
    Mr. Doggett. So what is the best estimate of the number of 
troops from other countries that will be there at your end?
    Admiral Giambastiani. I will have to give you the best 
record. I looked at--the number you quoted is about accurate. 
If we take a snapshot today, I can give you, in a classified 
setting, where we think we are going to go here, at least in 
the short term, in the next few months.
    There is no unclassified information about----
    Admiral Giambastiani. There is some classified information. 
I can provide you that also.
    Mr. Doggett. Okay. Can you just give me the best estimate, 
unclassified, of what the number will be at the end of the 
year?
    Admiral Giambastiani. I don't have it here. I will get it 
for the record for you.
    Mr. Doggett. Okay. Well, if you are going to submit it 
hereafter then, would you do it for the end of the year and for 
the end of the fiscal year, September 30 of next year?
    Admiral Giambastiani. If I could, because each of these 
governments has their own Parliaments, their own Congress.
    Mr. Doggett. I am not even asking you to identify by 
country.
    Admiral Giambastiani. We will get you the best estimate we 
can by the end of the year.
    Mr. Doggett. And for the end of the fiscal year as well, 
two numbers.
    Admiral Giambastiani. Yes, sir.
    [The information follows:]

    [DELETED]

    Mr. Doggett. But over the short term, you are able to say 
that you think that the country of Georgia will basically 
substitute for the reduction the British are making?
    Admiral Giambastiani. I wouldn't say they did it as a 
result of what the British are doing. They have decided to 
bring a brigade forward, and the British are taking down about 
1,600 of 7,000-plus. As you know, they are going to move 1,400 
or 1,500 of them to Afghanistan, and they have announced that 
publicly, and the Georgia Government will about double, I would 
estimate right now, based on the size of the brigade, about 
double what the British have taken down.
    Mr. Doggett. There are reports in several papers today that 
the Department plans to ask for another supplemental. Do I 
gather that that is inaccurate and that you will simply 
reprogram moneys to pay for these support troops for other 
purposes?
    Mr. England. Yes, sir, that is our best estimate.
    Mr. Doggett. Your best estimate is that we have seen the 
last supplemental for Iraq for this year?
    Mr. England. That is my best estimate. Yes, sir.
    Mr. Doggett. And you mentioned the fact that there is no 
money programmed for the escalation next year and said that was 
because the Secretary has said that you will know by this 
summer if this escalation plan is working.
    Mr. England. That is correct, sir.
    Mr. Doggett. And is there already underway a plan for what 
to do if it does not? I know there are no failures in Iraq, but 
if it has to have some adjustment, is there an adjustment plan 
already underway?
    Mr. England. Could you repeat the question for the admiral?
    Mr. Doggett. Yes, sir. You say you will know if it works by 
the middle of the summer--or by the summer, to be more precise. 
Do you have underway a plan in case it does not meet your 
expectations?
    Mr. England. Sir, let me answer first and then you can fill 
in if you can. Sir, I will tell you the plan at the Department 
of Defense is to execute this and execute it to a satisfactory 
conclusion, which is why we have no money going forward because 
our expectation is it will work.
    Now the question is: Is there an alternative? There is none 
I know of, but let me ask Admiral Giambastiani if he knows of 
any other approach.
    Admiral Giambastiani. What I will tell you is that a 
commander always has a plan. They put together what we call 
branches and sequels. These are alternate routes if something 
happens, which way do you move? When conditions change, you 
move in a different direction to respond to those types of 
conditions, and I expect that General Petraeus and his staff 
are doing those types of things right now.
    Mr. Doggett. Have you found the plan--is there any plan 
that would cost out withdrawal of troops, such as Mr. Allen 
asked you about at the last hearing? He asked for you to come 
back and tell us about what the cost of withdrawal of troops 
would be.
    Mr. England. There is no effort underway to do that, 
Congressman. There is no effort underway to plan for a 
withdrawal from Iraq. We have no such effort underway in the 
Department of Defense.
    Mr. Doggett. So you don't expect to be able to fulfill his 
request?
    Mr. England. I don't expect to be able to fulfill his 
request.
    Mr. Doggett. Thank you.
    Chairman Spratt. Mr. Lungren, I believe.
    Mr. Lungren. Thank you very much, Mr. Chairman. Maybe I am 
the only one here who thinks that the amount of money we are 
spending on our national defense is insufficient for the 
requirements of the threat that is out there. But I recall 
being here in the last 2 years of the Carter administration 
when we reached, I think, the lowest point in GDP spending for 
national defense in modern history at that time, and we were 
required to do the Reagan buildup. And yet I look at the 
numbers I have got before me, and we are far below where we 
were during the Carter administration before we began the 
buildup at 4 percent GDP.
    When the figures I have in your statement, Mr. Secretary, 
are that we are spending about 4 percent GDP, does that include 
the supplemental request?
    Mr. England. Yes, sir, it does.
    Mr. Lungren. One of my concerns is the maintenance of an 
all-volunteer force, which in some ways has to sustain itself 
by allowing for our consideration of our greatest asset, as you 
say, Mr. Secretary, our people. In order for us to keep our 
recruiting and our retention goals, it seems to me we not only 
must equip them with the best equipment and you spend a lot of 
time talking about the technology side of things, which I 
think, frankly, gives us the edge, but do we spend as much 
attention in preparing the budget for our people? And what I 
mean by that is how can we possibly allow something to happen 
as we have seen at Walter Reed?
    I watched the testimony yesterday, and I saw two Army 
generals take responsibility, and I appreciate them taking 
responsibility. But it is after the fact. It is like when I 
used to convict guys and send them to prison, and they found 
God after they were facing prison. And I believe in conversion, 
but I would have rather had them find God before they were 
facing a jail cell.
    Does this budget have as much concern for the health and 
welfare of our troops as it does for technology? I mean, do you 
plan as much for that, for modernization and recapitalization 
of our warfighting capability? I am really--I am just at a 
loss. I have been out there talking to my constituents about 
how we would never, ever let our troops down. And I have been 
out there to Walter Reed, and I guess I was shown the good side 
of Walter Reed. But I, for the life of me, don't know how I can 
answer that question when I go home and have my next town hall 
meeting. Because you have come here and you have talked about 
how we do war planning, how we do budgeteering, how we go 
forward, and I believe all that. DOD has the most impressive 
mechanism for budget going forward of any of the agencies and 
departments of government that I have seen, absolutely.
    So how can we have this fall through the cracks with our 
troops? And I don't think we can wait 5 months. I mean, I have 
heard we are going to have a commission, and I understand 
Senator Dole and Donna Shalala are going to be the two cochairs 
of that commission, but I can't go home to my constituents and 
say, in 5 months we will have the answers for you.
    What are the answers now? And what can we do now? And if we 
can reprogram money for these other things, why can't we 
reprogram money in the budget right now to fix the problem, so 
that if I have a constituent call me and say, I am getting the 
runaround, and they are talking about paperwork, and I can't go 
to this Army hospital, how can I tell them that within 6 weeks 
or within a month we are going to see real change? What do I 
say?
    And I address that both to you, Admiral, and Mr. Secretary.
    Mr. England. We are going to do everything we know to do. 
So every single thing identified will be fixed immediately. 
Everything. We are putting money, we are moving money right now 
in the supplemental to have money available to handle whatever 
may have to be done at Walter Reed near term. So we are doing 
that. We are physically right now working that issue, and 
reprioritizing within the budget so we will immediately have 
money available to deal with any issues at Walter Reed. So we 
won't wait.
    My only comment was, depending on what they find in terms 
of longer-term funding, we may need to make changes, obviously, 
depending on the extent of the findings. But in the meantime, 
anything that is found will be fixed. I would say that you are 
embarrassed, as is everyone else in DOD----
    Mr. Lungren. I am not worried about being embarrassed. I am 
worried about these guys who are out there, the men and women 
who we have promised and now it looks like we have failed. I 
just want to find out from you, and I would like to find out 
from the admiral how much time the Joint Chiefs of Staff spend 
on worrying about this issue.
    Because I mean, another question I would have, even though 
my time is up, is why do I hear from veterans and why do I hear 
from folks who say Bethesda is far superior to Walter Reed? And 
I have heard that for years and I basically thought it was just 
Navy guys talking over Army guys, but now it looks like it is 
true.
    So, Admiral, how much time do the Joint Chiefs of Staff 
spend looking at this? And this is a priority. And what can we 
say to our constituents is going to be done within the next 
couple weeks--not with a commission, God bless the commission--
but I have been around here long enough to know what 
commissions do and how long they take. It is our responsibility 
as Members of Congress, and your responsibility, all of us 
together, to fix this as soon as possible. 
    Admiral Giambastiani. Well, first of all, let me say as a 
member of any service, not just as a member of the Joint Chiefs 
of Staff, this situation is unacceptable. You know that 
already, we know that. But let me just say, you have heard 
repeatedly, I did a press conference after visiting Walter Reed 
right after the story broke with Secretary Gates. He said at 
that time, I continue to say, we continue to say, that this 
situation is unacceptable. But it is a leadership failure, and 
I think we need to go a little bit below what that means.
    I have learned over many many years as a military officer 
that you get what you inspect, not what you expect. I learned 
that over 30 years ago. And what I would say to you is this 
fundamental lack of leadership up and down the chain here is, 
frankly, getting in and delving into problems.
    Now, as a member of the Joint Chiefs, but also as a senior 
military officer, I and my wife spend a substantial amount of 
time, like the other chiefs do, visiting with these wounded. I 
have done it four or five times within the last 2 months.
    I was just, for example, at a dinner on Friday night, and 
we encountered a problem with a spouse who is having difficulty 
finding temporary housing for her child and herself. And her 
husband could not speak with us because he was heavily 
medicated at this dinner. In fact, he was sleeping. And we are 
currently working with General Cody and the Army staff to find 
them a location. That is just the real-world example.
    These types of things go on all the time where we go out 
and look for problems. What has been missed here is the 
systemic problem of taking care of outpatients that have moved 
from the phenomenal inpatient care that they get at all of our 
facilities. We had insufficient caseworkers assigned here. 
General Cody has testified to this, and has talked to me and I 
have talked to him personally about it. The caseworker loads 
are unacceptable when there are 1 to 125. There is no way, no 
matter how good the caseworker is, they can handle 125 cases. 
It is just not possible. So they have been working to reduce 
that to about 1 in 25 or 1 in 30. That is one example.
    Another one is who, in fact, does these simple inspections? 
I have been doing barracks inspections through my entire 
military life, and I just simply don't understand how we could 
have a failure of leadership to do those types of things.
    So these are the things that us senior folks are talking 
about. Why we missed these is unacceptable. As the deputy said 
to all of us, it is embarrassing. It really is, because that is 
not the way we were brought up.
    So where did we fail within the chain of command? So many 
of these are not resource problems. Frankly, they are 
leadership problems. And that is what I want to tell you as a 
military officer. That is why we aren't happy about the 
situation. We expected--I mean, I have been dealing with the 
wounded for a long time. We do find problems all the time, and 
we do try to take care of them with the appropriate staffs. We 
didn't have the right ombudsman system set up. It is a very 
confusing maze of bureaucracy for some of these people. All 
they need is a single number or a single person to talk to and 
it makes their life much easier so we can route the problems in 
the right way.
    Chairman Spratt. Thank you, Mr. Lungren. Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. I would just say I 
share Mr. Lungren's frustration, but I would like to focus, if 
I could, on two items here. One, there was a reference I 
believe, Mr. Secretary, to the expense associated with an all-
volunteer Army, military; that it is more expensive and it 
distorts slightly some of the cost comparisons.
    I guess my question--and I don't expect that you would have 
it right now, but I would like to have supplied some analysis 
about how much more expensive is the volunteer Army, 
particularly--and if you can parse out how much of that expense 
is because we have weakened our standards, we are bringing in 
less qualified people, we are forcing out qualified people 
because of their sexual orientation. We are having to pay 
higher benefits to meet our recruiting, the whole series of 
things that are associated with that.
    I wonder if you could for me provide an answer of how much 
is just the all-volunteer force that we had before, and the 
extra costs that are associated with the recruiting and 
retention problems now that have resulted in the things that I 
talked about.
    My second question was touched on by the Chairman earlier 
when he referenced what is probably the biggest threat that we 
face, the weapons of mass destruction getting into a terrorist 
network. I think we all agree that that is the single most 
terrifying prospect that has the potential of inflicting more 
damage on this country. In fact, I think it was President Bush 
who said a couple years ago that the biggest threat facing this 
country is weapons of mass destruction in the hands of a 
terrorist network.
    Yet the budget that has been given to us finds over $4.5 
billion for F-22 Stealth fighters, sort of Cold War weapons. It 
finds $3 billion for the Navy DDG 1000 Stealth destroyer, but 
cannot find enough money to maintain even the current level, 
which is only--I think it is only $372 million that has been 
cut 6.5 percent; $24 million for the cooperative threat 
reduction.
    What thinking goes into investing in Cold War weaponry of 
billions and billions of dollars and shortchanges the 
cooperative threat reduction, cutting it by $24 million?
    Mr. England. So the first question dealing with the----
    Mr. Blumenauer. I would be happy to take something in 
writing.
    Mr. England. Well, there is a GAO report, Congressman, it 
came out last year, on the costs of the all-volunteer military. 
It serves a whole analysis which is on the record; and the 
average cost, all that is included. And we have some 
supplemental data if you need that. But they undertook a 
comprehensive study, and so that is all document available. We 
will make sure you get that report, and whatever other comments 
we have on the report.
    Mr. Blumenauer. Mr. Secretary, the extra costs associated 
by declining standards, by increased benefits, the changes that 
have taken place because of the stresses on the military in the 
last couple years, is that in that report?
    Mr. England. No. But I don't believe there is a cost there. 
We don't have declining standards. I believe that that is not 
appropriate.
    Mr. Blumenauer. Is that a myth that we are bringing in 
people with felony records that we previously would have 
denied; that there are people that don't have the training 
skills that previously would not have been accepted?
    Mr. England. No. The people all meet our standards. This is 
a question about do people get a second chance. We have a whole 
program, by the way, our National Youth Get Challenged program 
where, across the country, I mean, we work--we bring 70,000, so 
far, young people who have had problems in the past; we bring 
them in, help them get education, help them get--a lot of them 
come up, not a lot, but a number of of them go into the 
military, they get jobs, we rehabilitate. So certainly we don't 
have a policy where because people have had some problem in the 
past, they are barred from the military. I mean, if they meet 
our standards, and we give them an opportunity, the military 
has always been helpful to people who have had problems in the 
past, but we have not changed our standards but we will address 
that with you. But your other question----
    Mr. Blumenauer. With all due respect, in my district I have 
watched you recruit two autistic kids into the forces. And to 
suggest that there hasn't been a reduction in standards and 
there hasn't been pressure to drag people in because of 
declining enrollment, I beg to differ.
    But to the second, about the threat reduction, I see my 
time's----
    Mr. England. Can I ask the admiral just to make a comment 
first?
    Admiral Giambastiani. I would like to tell you, 
Congressman, that I served in Vietnam and we had wonderful 
people serving at that time. But I have lived in this military, 
and as soon as I came back to Washington in 1975, I went into 
the All-Volunteer Force Recruiting Command. This military today 
has much higher standards than we have ever had since I have 
come into the service. I have been wearing my uniform for 41 
years, and I have some experience with this. I have sat on 
waiver boards back in 1975, 1976, and 1977. I have looked at a 
lot of kids. We issue a lot of waivers because we want to look 
at young kids who use marijuana, for example, one time and we 
want to talk to them about drug usage. We want to talk to them 
about misdemeanors.
    There are some people and there have always been people in 
the last 30 years or so that we have brought in with felonies. 
But we look very carefully at them. We have initiated Second 
Chance programs.
    Mr. Blumenauer. With all due respect, I said that I would 
request this--this is the part that I wanted in writing, 
because there was a difference, and parse out what the 
difference is in terms of the pressures in the last 2 years and 
the changes that have been taking place. Whether you think all 
of a sudden now we are increasing the rehabilitative efforts 
altruistically or whether it is the result of failed policies--
--
    Admiral Giambastiani. I think you have misinterpreted my 
comment.
    Mr. Blumenauer. What I am interested in is the costs 
associated over the last couple of years of the all-volunteer. 
I had hoped to get in my time a response to the issue that the 
Chairman had raised earlier about billions and billions for 
Cold War weapons and we can't fully fund the cooperative threat 
reduction.
    Mr. England. I have your answer, sir. Could I answer your 
question? Last year we had in the Cooperative Threat Reduction 
program, we funded $370 million. This year our request is $248 
million. And the reason there is a reduction is because--and 
the reason it is a reduction is because they have completed--
the chemical weapons destruction facility in Russia has 
completed that job. So we were funding them to destroy chemical 
weapons. They completed that task, and based on that cost no 
longer being there, it came down to budget this year. So that 
was based on the completion of a program in Russia.
    Mr. Blumenauer. I note that we have had the bipartisan 
panel chaired by former Senate Majority Leader Howard Baker, 
and former White House Counsel Lloyd Cutler suggested we could 
spend up to $30 billion over the next 10 years. And so it seems 
a little ironic that we have this one little piece that has 
been taken care of and that there aren't larger, more important 
threats to deal with.
    And I would, Mr. Chairman, hope that we could maybe seek a 
little sense of--if the Department of Defense thinks that this 
problem has been solved, that there isn't billions and billions 
of dollars' worth of problems that could be dealt with.
    I appreciate your answer about why you dropped that out, 
but it begs the question about a vast problem worldwide that 
appears to be being shortchanged.
    Thank you for your courtesy.
    Chairman Spratt. Mr. Becerra.
    Mr. Becerra. Thank you, Mr. Chairman. Thank you very much, 
Mr. Secretary, for being with us. I know some of these issues 
have been covered, so I am going to try to go through some of 
this quickly.
    First, just to be on the record, I want to express my 
outrage and distress at what we are learning about the 
treatment of some of our Active Duty personnel who have been 
injured and many of our veterans who seem to not be receiving 
the highest quality, not just care, but attention that they 
deserve.
    Yesterday I was at Walter Reed to visit one of the service 
members who is from my--not just my district, but my town of 
Eagle Rock in Los Angeles, California. And it is disturbing 
when you hear some of the reports that are out there.
    So I am glad to see that the Secretary of Defense is moving 
forward along with the Secretary of the Army to try to resolve 
some of these matters. But without using words that are not 
appropriate here in public, I would say that many of us hope 
that this gets taken care of as quickly as possible and with 
whatever money we have, and I think you have indicated that 
where you need to, you will reprogram dollars. We need to make 
sure that happens as quickly as possible.
    Mr. England. We will do everything and anything necessary, 
Congressman.
    Mr. Becerra. Appreciate that, Mr. Secretary.
    I would like to focus on a couple things. I would like to 
put up, if I could, chart No. 9, because to me it is 
distressing to hear that we are having to appropriate another 
close to $100 billion for the war in Iraq, and some of it for 
Afghanistan as well, at a time when we see very little end in 
sight in terms of what the President continues to propose.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    And to me, chart No. 9, this chart that you see now, is 
extremely compelling. This reflects the costs of the Gulf War 
which George Bush Senior initiated on behalf of this country. 
And when you take a look at the gross cost of $61 billion, that 
right there is minuscule compared to what the costs are today 
of this war in Iraq and Afghanistan. But when you recognize 
that, that 1991 Gulf War ended up costing us about $2 billion 
to the Treasury because we got reimbursement from some of the 
countries that didn't necessarily contribute as many troops, 
and we also were able to get some in-kind contributions as 
well. By the time you take into account what we got back by our 
partners, our Coalition partners, our costs to have gotten 
Saddam Hussein out of Kuwait was a lot less than what we 
initially paid.
    What distresses me and the reason I bring up this chart is 
we find none of that with this war which George Bush, the son 
of Senior, has taken us to in Iraq where we can expect to have 
not just participation by the so-called Coalition partners in 
the war effort, but certainly in terms of reimbursing us for 
the yeoman's work that our men and women in uniform are doing 
when others aren't willing to contribute the forces to do so.
    I wish we could say that we are going to have a net cost of 
$2 billion for this war in Iraq, but I daresay that that is 
going to be the case.
    When we put up chart No. 10, this will tell you why I am 
extremely distressed. Not only can we not expect to have moneys 
reimbursed to us from the work men and women are doing in this 
war in Iraq--and this may be tough to read because the print is 
small--but when we are not getting the best use of our dollars 
for the work that we are doing, then you really have to be 
distressed. When you see that our men and women on the ground 
don't have all the equipment that they need, the armor that 
they need, that their vehicles haven't yet been equipped with 
the armor they need completely when they are taken out to the 
field to battle. It is distressing when you read that some of 
our other projects, which will do nothing today to help our men 
and women on the ground in Iraq, are over budget by over 100 
percent, it has got to make you think, what the heck is going 
on?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Our principal focus should be on our men and women and 
making sure they are the best-equipped, best-trained and best-
protected troops that we have out there. But when I take a look 
at the fact that the Space Based Infrared System, a project 
which was supposed to cost $4 billion is now estimated to cost 
over $10 billion; when we were supposed to get five satellites 
and now we are hoping to get three; and the cost has escalated 
more than 315 percent--or the future combat systems which was 
supposed to cost $82.5 billion now is estimated to cost $127.5 
billion, a 54 percent increase, you go on and on and on and on.
    There is not much of a question here because there is not 
much time for you to try and answer this. I hope what you will 
all do is go back and discuss with folks at the Pentagon that 
we seem not to be quite as focused as we should be. We 
obviously need to have the systems that will protect our people 
and others in the world and provide them with the freedoms that 
we so cherish, but not at 300 percent over the initial cost. 
And we have to figure out ways to do this right, because when 
you have got soldiers at Walter Reed Hospital who are not 
getting the medical services that they need, when you have 
heard in Walter Reed Hospital stories of how rats and vermin 
are infesting some of the rooms where we have some of our 
soldiers, and when you hear the fact that some of our soldiers 
are going into Iraq without all the body armor that they need, 
it makes you wonder why we are spending 300 percent over cost 
to some of these systems that are costing tens of billions of 
dollars.
    So I hope you will take that back and know that this 
Congress is hoping to try to resolve this, to be as supportive 
as we can of the men and women in uniform without wasting the 
taxpayer dollar.
    I will yield back the time, Mr. Chairman.
    Admiral Giambastiani. If I could, sir, I just want to talk 
about armor for a moment, because I think it is very important. 
This is a very good example of where congressional support for 
funding has helped us tremendously.
    Mr. Becerra. Please, Admiral, go right ahead.
    Admiral Giambastiani. We went into this Operation Iraqi 
Freedom with under 500 nontanks, armored vehicles that weren't 
tanks or Bradleys, for example up-armored Humvees, we only had 
under 500 across the entire military. Today we have 42,000, 
just to give you an idea. Nobody operates outside of a forward 
operating base out of their base when they are inside Iraq or 
Afghanistan without going out with the proper armored vehicles.
    Number two, with regard to personal body armor, helmets and 
the rest, we do not allow people to go outside without the 
proper equipment, period. And we outfit them properly with all 
of the right equipment. When they do what we say, we call it 
going outside of the wire. All of these folks do this. And with 
your support we have produced hundreds of thousands of sets of 
this armor that go out there.
    I was just in Iraq and Afghanistan about 3-1/2 weeks ago. I 
went out and took a look at the new types of body armor, for 
example, that we have got on marines. I looked at a squadron 
just going out on patrol. They had full-length body armor. They 
were using new Nomex suits which are fire retardant, and we 
have got significant orders.
    The only thing I would tell you is that we can't get some 
of this stuff that you all have appropriated money for fast 
enough to them, but we are producing them as quickly as 
possible.
    I also rode in these latest V-shaped up-armored vehicles. I 
have done that repeatedly over a number of times at the 
National Training Center in Iraq. I have gone on improvised 
explosive device training courses in Iraq and driven these 
vehicles personally. My point to you is that we don't allow 
them outside without the appropriate equipment. That is the way 
we equip them.
    Mr. Becerra. Mr. Chairman, if I could just say thank you to 
the admiral for his response. I think you would find a very 
receptive Congress if this is what we saw you telling us that 
you needed that extra money that you didn't expect because you 
have to make sure that the troops have the up-armor they need, 
that they have all the equipment that they need. But when at 
the same time we see the massive overruns on some of these 
other systems defense systems, it makes you cringe, because we 
know that there are still stories of men and women coming back 
saying they didn't have everything they needed.
    So I appreciate the response. Looking forward to continuing 
to work with you. But there is a need to have more 
accountability at the Pentagon, because the men and women, when 
they follow their orders and they go on the ground, they expect 
that we will have done the best we can with the dollars we have 
to make sure that they are prepared.
    Admiral Giambastiani. Yes, sir, that burden falls on us as 
leaders and managers here to make sure that we have the 
appropriate accountability. I would just solicit your strong 
support for this fiscal year 07 supplemental to help us as soon 
as possible. There are a lot of armored vehicles. There is a 
lot of armor. There is a lot of equipment in there to equip our 
troops, and we can use it as quickly as you approve it.
    Mr. Becerra. Thank you.
    Chairman Spratt. Thank you Mr. Becerra. Mr. Tiberi.
    Mr. Tiberi. Thank you, Mr. Chairman. I am sorry I was late 
and I apologize for missing your testimony. I look forward to 
reviewing it.
    I just have one question, Mr. Secretary--thank you for 
coming today--one I know hasn't been asked, because it deals 
with a central Ohio issue. I have been working with the Ohio 
National Guard over a FYDP issue for a new Guard Training 
Center in central Ohio, in Delaware, Ohio. And the proposed 
facility was originally on the future year's defense plan for 
2011. However, that was originally. However, now it has been 
pushed back to 2013. It was originally for 2010, been pushed 
back for 2013.
    I know you may not be able to answer the question right 
now, but this has a huge impact on the Ohio National Guard 
which is being asked to do more and more in our war on terror. 
The State of Ohio has appropriated money to share in the cost 
of the facility. That money now is in jeopardy because of this 
being pushed back on the FYDP to 2013 and I, with other members 
of the delegations of the Appropriations Committee and Armed 
Services Committee tried to work to move it back. But I would 
hope that the Department of Defense would work with the Army to 
begin the process of restoring that money, because it is 
critically important as the Guard is being asked to do more by 
the Department of Defense.
    So I know you may not be able to answer the question now as 
to why it happened and how we can correct this problem, because 
it is having an impact on our men and women who serve in the 
Guard, but I hope that you would get back to me on that 
particular issue, the Ohio National Guard in Delaware, Ohio.
    Mr. England. Mr. Tiberi, you are right; I don't have the 
answer. But you are also right, we will get back with you so we 
will have somebody----
    Mr. Tiberi. Thank you very much, sir. I look forward to 
working with you.
    Mr. England. Thank you.
    Chairman Spratt. Ms. Sutton of Ohio.
    Ms. Sutton. Thank you, Mr. Chairman.
    Secretary England, I just have several questions and they 
are sort of--they are all related but yet individual in their 
own right. We have heard a lot of talk today about the 
conditions at Walter Reed, and I would just like to add my 
voice to those that have already been raised here. The problem 
that seems to be missed, though, in your response, Admiral and 
Secretary England, is it is not enough to just say that we are 
going to look at what we need to do and we are going to correct 
it. The question that my constituents want to understand and I 
want to understand is how in the world could this have 
happened, and people in positions such as yours, who are 
accountable for making sure that these facilities have what 
they need and are executing their responsibilities, didn't see 
any red flags or had to wait until the paper broke this story.
    Mr. England. First of all, let me just say it is not a 
resource issue. I think the generals have both testified 
yesterday, and you heard the Secretary, this is a leadership 
issue. But like the general, however, I mean for 5 years we 
have been dealing with our veterans and we go out to the 
hospitals regularly and we meet them at dinner and ballgames 
and all sorts of things, and it has never come up. It is sort 
of a strange but it hadn't come up to us. So I didn't know 
about it. No excuse, but didn't know about it. I guess other 
people didn't know about it.
    So that said, we have a problem. And the systems weren't 
working right. Now if the systems were working right, we never 
would have had this problem. It would have been fixed 
instantly. People at the low level and, like the admiral said, 
somebody would have inspected and we would have had enough 
feedback. And I will say this: Over the years, I mean my office 
and, I think, the admirals, whenever anybody has an issue that 
comes to us, we fix the issue. And I guess it was always my 
view that, you know, some people sort of of fell through the 
cracks.
    Well, it turns out, I guess, if you look at all this over a 
period of time, it has probably been enough people that you 
should have had some indication that there was a systemic 
problem rather than just random cases. There will always be a 
random case. So we missed the signals. And I wish we hadn't. We 
wouldn't be here. We wish we had known this earlier, we could 
have fixed it. But it is not a resource issue. It is an issue, 
I think--the admiral said, it was the first time I heard that 
expression, it is not what you expect, it is what you inspect. 
So it didn't happen right and people have been held 
accountable. And the system is being fixed and everything at 
Walter Reed will be fixed and anyplace else will be fixed.
    Ms. Sutton. With all due respect, I like that phrase too. 
It is what you inspect, and I think this Congress needs to 
inspect how this could exist without people knowing about it 
and addressing it before it broke in the paper.
    The second question that I would just kind of like to 
raise, I was struck by your testimony, Mr. England, about our 
joint warfighters with what they--let me just read it from the 
beginning:
    The defense budget request before you will provide our 
joint warfighters with what they need to accomplish our mission 
of protecting and defending America; our land, our people, and 
our way of life.
    So am I correct in understanding that that is what any war 
that we are involved in, one of those purposes is served by 
every war that we are involved in, protecting and defending 
America, our land, our people and our way of life?
    Mr. England. So I am not sure, what is the question?
    Ms. Sutton. The question is, are those the three purposes 
that any war that the United States of America is involved in 
should be about?
    Mr. England. Well, it is to protect our citizens, to 
protect our friends and allies, it is to promote freedom and 
democracy. I guess I could write a dissertation, but at the 
core that is what we do. Our job is to protect and defend the 
country, our citizens, and our friends and allies and to deter 
and prevent wars in the future. So we try to defer, we try to 
prevent wars, we try to work cooperatively with countries, and 
so we have funding in there to work with countries around the 
world to establish ties with their militaries. So it a broad-
based mission. At the core it is to defend the country and our 
way of life over a long period of time.
    Ms. Sutton. Well, thank you. That is obviously much more 
expansive than the words on the paper. So I appreciate that. 
And just following up on that, Secretary England, on July 16, 
2006 the DOD comptroller sent a guidance memo to the military 
services that required that they provide 2007 supplemental 
estimates by September 1, 2007. And when you received those 
estimates on September 1, I would be interested in knowing how 
much those services' supplemental requests totaled, and then I 
would like to understand why 2 months after those estimates 
were due to the Office of the Secretary of Defense, why you 
sent out a guidance memo to the services submitting--asking 
them to submit war estimates that included requirements for a 
broader definition, again, of a longer war against terror. What 
was the purpose of that memorandum as the follow-up to the 
first request?
    Mr. England. Okay. So first of all, requests come in from 
the services, what we call raw requests. It comes to the 
comptroller and the comptroller vets those. So some things may 
be in the base budget, some things may have been funded in the 
past. So we make sure there is no double-counting and all that.
    But we would be happy to provide you those numbers. But we 
make sure that when requests come in, it is not something that 
is already funded, it is something in another budget, et 
cetera.
    So the comptroller vets all those numbers and typically 
they change, typically they come down quite dramatically 
because just maybe fund another bucket and all those things 
that people making requests didn't know about. So we go through 
a long vetting process in the comptroller's office, and then 
the requests I put out later was because we had some very 
specific requests by our combatant commanders.
    And if we go into the base budget for the global war on 
terror, then, of course, you know we have a long lead time.
    So, for example, we did a 2008 budget last year, worked on 
it during the year. It will be debated this year. It will 
become available basically next year. So it could be a 2-year 
delay in terms of actually having funds available. We had some 
needs that we felt needed to be addressed. It was the global 
ear on terror. So we said let's address them, because there is 
something that needed to be address.
    That said, as I indicated earlier, we are reprioritizing 
and those funds will be lower in terms of their priorities. So 
just like our airplanes, you know, we will likely reprioritize 
those funds just because they are a lower priority. But the 
intent was to address the needs identified by our military of 
things they felt--equipment, whatever they needed to prosecute 
the war in their part of the world.
    Ms. Sutton. Thank you.
    Chairman Spratt. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Secretary England, I understand the monthly costs, 
beginning of Iraq 2003, were $4.4 billion per month; monthly in 
2004 was about $5 billion per month; 2005 was $6.4; 2006 was $8 
billion; and this year with the increase of about 40 percent, 
we would assume it is about $11 billion per month for being in 
Iraq. Does that sound about right?
    Mr. England. That is about right. I believe that is 
correct.
    Mr. Scott. Is 2008 expected to be more or less?
    Mr. England. I believe it is less because of the--well, 
again, based on, quote, the place holder we have in 2008, it is 
$143 billion, $141.7 billion, it is less than the total for 
this year.
    Mr. Scott. Okay. Now we don't expect a supplemental in 
2008, is that right?
    Mr. England. So let me be clear because it gets a little 
bit confusing. We turned in the 08 GWOT at $141.7 billion, 
which is an extension of the 2007 again, because we don't know 
what the events on the ground will be next year.
    Mr. Scott. Well, we are fighting a war so we don't know. 
But we don't expect a supplemental in 2008.
    Mr. England. I would expect that the $141.7 will be 
modified either up or down before we actually get to this stage 
next year, just because we will know more at that point in 
time.
    Mr. Scott. Does the budget include sufficient funding to 
avoid any further delays on CBN 78?
    Mr. England. Yes. That is in the base budget. My 
understanding is the Navy has funded that, so there is no 
further delays. I believe--I will have to go back to the Navy, 
though, and confirm that, Mr. Scott.
    Mr. Scott. Is there sufficient funding for maintenance of 
the ships that have already been built in the budget?
    Mr. England. Yes. Now I say that ``yes'' because we 
increased the O&M accounts in 2008. So the O&M accounts are 
higher in 2008, so my expectation would be that they are fully 
funded. Again, I will get the Navy to confirm that for you.
    Mr. Scott. We have a real tight budget. We are charging 
veterans additional fees and everything. It is a real tight 
budget. There is a proposal to move one of the carriers home-
ported in Hampton Roads down to Florida at a cost that has been 
estimated at hundreds of millions of dollars, maybe a billion 
dollars. Could you consider leaving the ship there in Hampton 
Roads to save a billion dollars that could go to shipbuilding 
or other important costs?
    Mr. England. Mr. Scott, I will have to sort of put my old 
Secretary of the Navy hat on here and go back to when those 
decisions were made. When we decided to retire the Kennedy, we 
still wanted two ports on the east coast and two ports on the 
west coast we could have our carriers, just for the security 
aspects of it, so that we didn't have everything in one 
location. So at least when I was in that position, the 
rationale and my commitment at that time is that we would move 
a carrier to Florida so we would continue to have a higher 
degree of security for our fleet.
    Mr. Scott. Your chart--you didn't know you were going to be 
charging veterans to pay for their own health care back then. I 
mean, you didn't know the budget was going to be as tight. So 
we will be seeing how that moves along.
    On BRAC, is there sufficient money in the budget to clean 
up Fort Monroe? The costs of that were estimated at hundreds of 
billions of dollars. And I thought it was an absurd decision to 
make, but it was made. Is there money in the budget to pay for 
the cleanup?
    Mr. England. Mr. Scott, I will have to get back with you.
    Mr. Scott. As you know, there is a reverter clause, and 
when you give the property back to the Commonwealth of 
Virginia, it has got to be cleaned up if you stop using it as a 
base. So I will look for that answer.
    Mr. England. We typically do include those costs, but let's 
confirm it and I will make sure to get back with you.
    Mr. Scott. I just have a couple seconds. I wanted to get in 
another question. You are aware of the good services we have in 
modeling and simulation in the Hampton Roads area. Are you 
using modeling and simulation to the extent practicable for 
planning and training?
    Mr. England. Let me turn it over to the admiral who is more 
of an expert than I am.
    Admiral Giambastiani. The answer is, what I would say is it 
is adequate for what we are doing. There are some desires to do 
more. We are doing a tremendous amount though. And that is what 
is significant.
    As you know, Mr. Scott, from my time down on the Joint 
Forces Command, the Department has invested heavily in modeling 
and simulation. We have extended it to training. We are 
extending it to intelligence surveillance and reconnaissance 
predictive tools. This is a burgeoning market, and frankly we 
are going to do more in the future. We are going to continue to 
do more. It is a growth industry. That is the bottom line.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Chairman Spratt. Mr. McGovern.
    Mr. McGovern. Thank you, Mr. Chairman. I want to thank you 
for being here once again. I want to associate myself with the 
comments of some of my colleagues here on the whole Walter Reed 
issue, and I wasn't going to go down that road with 
questioning, but after listening to some of your responses, I 
wanted to make a couple of points.
    You know, Admiral and Mr. Secretary, you both have said 
that this is a leadership problem. Well, if it is a leadership 
problem, then a hell of a lot more than two people need to be 
fired, more than an Army Secretary and more than a two-star 
general. The fact of the matter is, this is not only a 
leadership problem, it is a systematic problem, it is an 
institutional problem. And as The Washington Post pointed out 
yesterday in their story entitled ``It Is Not Just Walter 
Reed,'' there are examples of neglect and mistreatment and poor 
conditions all over this country. And so when you say it is not 
a resource problem, I don't know how you are going to be able 
to fix all that you are going to need to fix, because it is 
widespread, without additional resources.
    I mean, we have stories of--you know, we learn about the 
Walter Reed stories about the mold, mice, and rot in Walter 
Reed's buildings, but that is not the only place where you have 
those conditions. We had a woman quoted yesterday, a mother who 
was horrified when her 21-year-old son was discharged from the 
Naval Medical Center in San Diego a few months ago and told to 
report to the outpatient barracks, only to find the room 
swarming with fruit flies, trash overflowing, syringes on the 
table.
    You have situations where there are not enough nurses, 
where you have wounded or injured leading the troops, stories 
from Fort Campbell, Kentucky, talking about yellow signs on 
doors stating that our barracks had asbestos.
    To fix that is going to require millions and millions, if 
not billions, of dollars if in fact--what really should have 
been known a long time ago, and I can't believe that the 
stories haven't trickled up because, you know, this is not a 
new phenomenon and notwithstanding the fact that the newspapers 
have kind of broken this story. I mean, it just takes my breath 
away when I hear you say that you just didn't know about this. 
And you know, we make a big deal about going before the 
American people during this time of war and saying, you know, 
our men and women who are serving, you know, are our first 
priority. We are going to take care of them not only when they 
are over there, but when they come home. And you have--again, 
this is not just about Walter Reed. I mean, this is all across 
this country.
    And so I would say to you, with respect, that it is not 
just a leadership problem; that it is a systematic problem, 
that it is an institutional problem, and it is a resource 
problem. Because when Senator Dole and former Secretary Shalala 
finished their recommendations, I can bet you that the cost of 
fixing what needs to be fixed is going to be phenomenal. So 
with all due respect, I would not say it is not a resource 
problem, because I think indeed it is going to become one and 
it is going to cost this country a great deal to be able to 
fix. If you want to respond, I would appreciate any----
    Mr. England. I guess we are waiting to see. I don't know if 
this is a systemic problem. Maybe you are right, Mr. McGovern. 
I just don't know. I guess when people look at it, we will find 
out. My comments: It is not a resource problem means that if 
something needs to be done, funds will be made available. To 
the best of my knowledge, in the past we have made the funds 
available that were requested and needed. And so if there is a 
shortcoming, we will fix it. I mean, it is clear----
    Mr. McGovern. Part of what this committee is about is to 
figure out how much we need to devote to these issues, and so 
if you are coming before us and saying it is not a resource 
problem, when in fact I think we all know it is going to 
require a substantial amount of money to fix--this is not just 
Walter Reed.
    Mr. England. If it needs it, we will do it. It is that 
simple. If they need money, we will fix it and do it. I don't 
know the extent until somebody looks at it. But again, it is 
not a resource issue in terms of people wanting the funds to 
fix it. I mean if we need funds to fix it, we will do it. It is 
our highest priority. We will do it. So there is no question we 
will apply whatever resources we need to this problem. I don't 
know how widespread it is. I don't know if I arrive at your 
conclusion, but we will find out and do whatever it takes.
    Mr. McGovern. Again, it kind of again stuns me when you, 
you know--you read and you hear, you know, that there are 
facilities that have signs up that say, you know, ``Stay 
Away,'' this is asbestos filled. When you hear stories of 
soldiers going back and going into situations where the 
conditions are not even sanitary. I mean, these are our men and 
women who we are putting in harm's way. And so, you know, we 
are going to need to make--you are right, we are going to need 
to come up with the resources. And it is going to add 
substantially to what we need to do in this Congress, but it 
also, again, it just never came to our attention, none of these 
stories ever trickled up to the level where we thought we 
needed to take action.
    I mean it is clear, I mean just read The Washington Post 
story yesterday, you know, this is a widespread problem. And it 
is just--again, it takes my breath away when I hear it never 
got up to our level. Who is everybody talking to? And we also 
have--the Post talks about, you know, scare tactics used 
against soldiers who will write sworn statements to assist 
soldiers and their medical needs. Clearly some of these people 
are told just to shut up.
    So I wasn't going to pursue this line of questioning or 
make a statement because I know my colleagues did it more 
eloquently, but this is more than a leadership problem. And if 
you believe it is a leadership problem, you are going to have 
to fire a lot more than than two people.
    Admiral Giambastiani. If I could from a military 
perspective, it is a fundamental leadership problem, and the 
reason why I will tell you this is that there are root causes 
for these failures. There are root causes. There are systemic 
problems that you must go look at. And that is what we are 
doing now. We can fix certain things immediately, but the 
question is, why didn't our leadership at the high levels, the 
mid-grade levels and the lower levels determine that we had a 
problem here? That is why we will say in general terms, and as 
I said before, it is much more than just the mantra. It is a 
leadership problem.
    You must look through this entire chain of command to 
figure out why we weren't addressing these. Let me give you an 
example----
    Mr. McGovern. If that is the assessment, then our current 
leadership at every level has failed miserably.
    Admiral Giambastiani. We clearly have failed with regard to 
how we are taking care of our outpatients. There is no doubt 
about it.
    Mr. McGovern. Thank you.
    Chairman Spratt. Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. Thank you for your service. I 
appreciate your testimony before this committee and I don't 
envy your task of defending this administration's budget and 
record. And I associate myself with the comments that have been 
made as it relates to our veterans, and I suspect you are going 
to have a lot of Members visiting a lot of VA hospitals. And I 
have been to some and a lot needs to be done.
    I would like to note that the President's proposed Defense 
budget of $622.8 billion is the largest budget that we have had 
since Japan surrendered in Tokyo Bay, and that has already been 
talked about this morning. And let me just say that since I 
have been in Congress, I have voted for every Defense 
authorization bill, every appropriation bill and every 
supplemental. So I want that as a part of the record.
    But the vast amounts of sums being consumed by the Defense 
Department is staggering. I say that because--let me just read 
something for the record--because I think it needs to be on the 
record--before I ask my question, because the ongoing war in 
Iraq and other places is driving this troubling budget train.
    Four years ago this month, your predecessor testified in 
front of the Appropriations Committee and he said--and I 
quote--``The oil reserves for that country,'' talking about 
Iraq, ``could bring between $50 and $100 billion over the 
course of the next 2 to 3 years. We are dealing with a country 
that can really finance its own reconstruction and relatively 
soon.'' We are dealing with a country that can--excuse me.
    Now, you can't be held responsible, and I recognize that, 
for what your predecessor had to say and I appreciate that. But 
I would like to note for the record that Iraq is not financing 
its own reconstruction. Foreign countries like China, Japan, 
Saudi Arabia, Libya and others are financing the reconstruction 
and our war in Iraq by buying America's debt. The bill will 
come due not on this administration's watch, but our 
grandchildren will be left with this bill. And I think that is 
a pretty sorry record when we look at it in that regard.
    Mr. Secretary, you stated in your testimony that improving 
the readiness of the force is the number three priority in this 
budget. I am very concerned about the effective readiness for 
our troops. I happen to represent Fort Bragg and an awful lot 
of Guard and Reserve soldiers who have been in Iraq, and I have 
heard from them the stories of how they did not have body armor 
and other stuff. We are hearing reports that military equipment 
is wearing out much too quickly, and much quicker than was 
anticipated, and reset costs are well beyond what was expected. 
Our sources report the supplemental process, as we have just 
heard in the Pentagon, was expanded greatly.
    So my question is this: Can you tell us what measures you 
have in place to maintain the readiness of the force and how 
the status of those things are measured, how we are measuring 
it? And secondly, how do you prioritize and determine the needs 
of such necessities such as simple things like body armor and 
the things that really protect our troops on the ground, 
creating the humongous number of casualties and wounded men and 
women who are coming home?
    Mr. England. So, Congressman, we get our requests from the 
services coming on their budget request. And take armor. I mean 
we have had a lot of iterations of both body armor and vehicle 
armor. As the admiral said at the beginning of this war, we had 
less than 500, quote, armored vehicles; we now have about 
43,000. But those 43,000 are iterations of armored vehicles as 
we have gotten better and better at this.
    Mr. Etheridge. Mr. Secretary, how in the world do we send 
these men and women into harm's way, though, without the 
equipment that was necessary? I think that is the question the 
American people would have me ask today.
    Mr. England. I think if you listen, the Army will tell you 
they went through this whole nineties, right? I mean the 
procurement budgets were pretty much savaged, and they started 
out the beginning of this administration $56 billion in the 
hole. So when this war started there was a deficit, a big 
deficit, d we have been working, I mean, we have been working 
hard through these supplementals to build up all that equipment 
so we now have, as the admiral said, 43,000----
    Mr. Etheridge. We kept being told we were ready to go, 
nothing--there would be no problem. We can march in and it 
would all be over. All of a sudden we are finding out not only 
do we not have the right equipment but we don't have enough of 
it.
    Mr. England. The adversary has a say about how things 
unfold. So the adversary had a say, and it is a very lethal 
adversary and they have very lethal weapons, and so we keep 
going through the iteration of our equipment, which we do all 
the time, so we can provide the very best we can for our 
soldiers, so we keep getting them better sets of body armor, we 
keep getting them better sets of armored vehicles. We are still 
doing that today.
    There are new iterations always coming out to provide them 
the very latest we can provide them, and those funds are in the 
supplementals.
    Now that said, in the 2008 baseline budget you mention 
readiness, the budget in the 2008 baseline, there is an 
increase of $16.8 billion to improve force readiness. And that 
is more training in the base budget in addition to what is in 
the supplemental, that is equipment repairing and replacement, 
because some of that is in the base also and in intelligence 
and support. So the 2008 budget, there is significantly more 
funds in 2008 than there was in 2007. But again, I would 
iterate the comment that the Vice made, the 2007 supplemental 
is crucial. There is a lot of money there. It is for equipment 
and it is for armor and it is all sorts of things. And if the 
one thing I could encourage would be for the Congress to pass 
this supplemental as soon as possible, because it is funding 
that we need to protect our men and women who are doing this 
fight every day. So I mean that is one way you can be 
extraordinarily helpful to us is to get this supplemental out 
as soon as possible, but by the middle of April would be ideal, 
frankly.
    Mr. Etheridge. Thank you Mr. Secretary. Thank you, Mr. 
Chairman. I just hope in the future we will get numbers that 
will show us also what the costs, the residue costs are as we 
talk about our men and women who are in these VA hospitals and 
others who are really having problems. Thank you sir.
    Chairman Spratt. Ms. Schwartz is not here. Mr. Bishop of 
New York.
    Mr. Bishop. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, Admiral. A couple of things. First, I certainly want 
to associate myself with the remarks of all of my colleagues on 
both sides of the aisle with respect to the outrage at Walter 
Reed and elsewhere within the medical system. And I guess one 
of the things that bothers me the most about this--this is 
really a comment, I am not asking for a response--is with the 
tens of thousands of people that we have working for the 
Department of Defense, the tens of thousands of people we have 
working for the Office of Veterans' Administration, that it 
took two reporters from the Washington Post to bring this issue 
to the level of attention that it has received.
    Mr. Secretary, you have described it as fixing it as our 
highest priority. Respectfully, I would say that, if caring for 
our soldiers as they recover from their wounds were such a high 
priority, this would have been discovered and acted upon by 
someone in the employ of Department of Defense. We would not 
have to rely on two, I would say, courageous reporters for the 
Washington Post, and I will not ask for a comment. You have 
commented enough on that.
    There was a report released, I think last week or the week 
before, that suggested that 90 percent of our Guard and Reserve 
forces were not ready for deployment. Either there was 
insufficient equipment, insufficient training, and so on. My 
question is: A, do you accept that number? Do you agree with 
that number? If you do, what are the plans to rectify that 
situation given the enormous dependence we now have on Guard 
and Reserve?
    Admiral Giambastiani. If I could, Mr. Bishop, first of all, 
as a former Commander of U.S. Joint Forces Command where our 
National Guard forces report to Joint Forces Command when they 
come under Title X authority, they must report their readiness. 
They report their readiness in a classified system. So, to your 
question about--I think, actually, the estimate was 88 percent, 
is what it said, were not ready, and what I would tell you is 
it is the statement that they are not ready that is incorrect, 
okay?
    What I would then tell you is there were references to, I 
believe--and I did not read all of these articles completely, 
but there were references to--and I talked with Mr. Panaro, who 
is the Chairman of this Commission on the National Guard, about 
this statement. About half of the forces within the National 
Guard are ready at all times to respond to State emergencies. 
Now, that was not stated anywhere in this article, and General 
Blum would testify to that, and he would come up here and tell 
you--and I confirmed before I came over here today--that in 
fact about 50 percent of our forces are ready immediately for 
any type of State emergencies. What the readiness these units 
report on through the Federal side is their readiness to meet 
wartime conditions, and their required readiness is to go out 
and be able to respond to a wartime situation.
    So what I would say to you is that the ``88 percent'' 
number is correct if you modify it from not ready to that they 
will respond to wartime crises with the equipment and the 
training and the rest of it that they go out to.
    Mr. Bishop. I just want to be clear.
    Admiral Giambastiani. I just want to be sure you understand 
they are not ready; they are not fully ready equipmentwise.
    Mr. Bishop. I am trying to understand the distinction.
    So, in response to the question of what percentage or what 
proportion of our Guard and Reserve troops are ready to respond 
to a wartime situation, what is that number?
    Admiral Giambastiani. I have asked the question for our 
system to give me the exact number, and they have not done 
that, but let me just explain the reason why I do not have that 
answer to you.
    I talked to General Smith, as a matter of fact this 
morning, from Joint Forces Command, on it. Our readiness 
system, once again, on the classified level has C1, C2, C3, and 
C4, and what I want to read to you is what C3 is. All of our 
National Guard units are supposed to be units that possess the 
required resources, and the unit is trained to undertake many 
but not all portions of the wartime missions for which it is 
organized or designed, and then there is a level below that of 
C4. Most of our units for equipment readiness are in the C4; 
whereas, they are supposed to be at the C3 level, what I just 
described to you. So, to correct the equipment part of the 
equation, what we have done is put a huge amount of money--and 
I would ask the Comptroller to tell you how much. It is in the 
$20 billion to $30 billion range for equipment readiness 
problems that we have funded over the last series of budgets.
    Mr. Bishop. I am sorry. As to the $20 billion to $30 
billion number that you are citing, it is in the base budget or 
is it in each of the supplementals that aggregates to one of 
your----
    Admiral Giambastiani. It is a combination of all of the 
above.
    Mr. England. No. No. I can answer that.
    In the 2005 to 2013 budgets, there is $36 billion for 
National Guard and Reserve equipment.
    Is that right?
    Ms. Jonas. That is right. From the fiscal year 2008-2013, 
about $22 billion is in the base budget. We have another $2.7 
billion between the 2007 and 2008 GWOT requests for about $24.6 
billion for the Army Guard. We have another $5.3 billion for 
the Air Guard. Your total across all three bills is about $30 
billion for 2008 to 2013. What the Deputy quoted was the 2005 
number being----
    Admiral Giambastiani. To give you an example, the 
President's budget for 2008 has $4.5 billion for Army Guard and 
Reserve equipment. The 2007 Title IX Appropriations Act had 
$3.3 billion. Those are subcomponents of what the Comptroller 
just gave you.
    Mr. Bishop. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Spratt. Isn't there another component, and that is 
the training component, the individual unit training, the joint 
training component that frequently becomes a deficiency when 
the unit is shipped out to another theater and simply cannot 
maintain the training for its basic assignment?
    Admiral Giambastiani. Yes, sir. That is correct. There are 
certain types of training that somebody may be trained for to 
do, but they have been redirected from, say, full spectrum 
warfare to counterinsurgency. So they train for 
counterinsurgency, deploy for counterinsurgency, and they may 
not have the full spectrum side of this. That is correct.
    Chairman Spratt. Thank you, sir.
    Ms. Hooley.
    Ms. Hooley. Thank you, Mr. Chair.
    Thank you, Mr. Deputy Secretary, for being here and for 
your service.
    Mr. England. Ms. Hooley.
    Ms. Hooley. As I understand it, the current MEDCOM policy 
is that all soldiers who mobilize or demobilize at a base are 
required to go to that base for follow-up care. Because Oregon 
and a dozen other states have no bases, our Guard troops must 
remain for weeks at the base they were deployed from for 
follow-up care, bases that can be hundreds and, in most cases, 
thousands of miles away from their families and their homes. As 
a result, Guardsmen frequently deny injuries during their 
demobilization process to avoid having their deployment 
extended far away from their homes and their families, taking a 
chance they can seek treatment later on from the VA.
    Let me give you a couple of examples of what happens when 
these Guard troops request treatment upon demobilization.
    Take an SFC with the Oregon Guard, who is on the East 
Coast, with medical issues. He has a wife and 6 children, and 
the separation of the deployment has strained their 
relationship to a breaking point. He has seen his family once 
in the last 3 months. My question is why wasn't he sent to Fort 
Lewis, which is much closer--150 miles away. Why can't he use 
TRICARE to have his injuries looked at and treated at home with 
a local physician?
    Another story involves an Air Force Specialist with a wife 
and 2 young children, who has seen his young family stateside 3 
times in the last 3 months--once because the Army sent him home 
for convalescent leave and the other 2 times over the holidays 
because his wife drove she and her children out to the East 
Coast because they could not fly to see him. Why won't the 
military structure change to the new reality of an operational 
Reserve and allow them to be treated closer at home?
    An Oregon soldier with no family at home has not seen a 
medical professional for 3 months because he is waiting for an 
administrative board to look at whether he is retainable or 
not. The Army has 90 days to review this before making a 
decision. All of his personal belongings were left either in 
Afghanistan or in Oregon. Because the soldier must wait for a 
van shuttle to get around he purchased another vehicle. Why is 
he not waiting for a decision, again, at Madigan or Fort Lewis, 
which is much closer to home?
    If 4 out of 10 soldiers in Iraq and Afghanistan are Guard 
or Reserve, isn't it time for DOD to adjust this MEDCOM policy 
and make improvements to the demobilization process for Guard 
members in States like mine that have no military treatment 
facilities?
    I am going to ask a couple other questions, and you can 
answer them all at the same time.
    The Independent Commission on the National Guard and 
Reserve, a document I am sure you are familiar with, has 
outlined in their most recent report to Congress a plan to 
begin to address the problem with the Guard. Their price tag is 
$39 billion. Yet, your plan calls for $9 billion to address the 
very same problems. How do you explain the cost difference of 
this well-respected objective commission in your estimates?
    [The information follows:]

    The National Guard and Reserve equipping needs received additional 
funding in the last few years and is projected to continue to receive 
funds toward equipment shortages.
    The Fiscal Year (FY) 2008 President's Budget Request has $5.7 
billion for the Guard and Reserve equipment procurement with $3.7 
billion going to the Army National Guard (ARNG) and $760 million going 
to the Air National Guard (ANG). Additionally, the FY 2007 Supplemental 
Appropriation provided $1.0 billion specifically for ARNG procurement.
    The Department's procurement plan for Guard and Reserve equipment 
over the Future Years Defense Plan--FY 2008-FY 2013 is $36.6 billion 
with $22 billion for the ARNG and $5.2 for the ANG.

    The next question is I hope that you are looking at 
governance structure and changes, and I guess what governance 
structures are you implementing--changes are you implementing 
now to address the fact that the Guard is now an operational 
Reserve rather than a strategic Reserve?
    Mr. Deputy Secretary, right now, due to equipment not being 
rightfully transferred back to States, again in my State, 
Oregon, the Oregon Guard supply unit of trucks, equipment and 
people is at 44-percent capacity. Our governor is getting ready 
for and has had flood season. Fire season is coming next. 
Because of the DOD's policy of not returning what should 
rightfully be at our State's disposal, my State does not have 
the equipment or troops it needs to be fully prepared for these 
likely events. When is this vital equipment going to be 
returned not only to my State but to other States?
    Last, it my understanding that a military standard for 
helmet liner pads was written which lowered the standard of 
performance from the performance of the original helmet liner 
pads in order to provide for competition and get the pads at a 
lower cost. How much money did you save, and do you really 
think it is worth it given the number of traumatic head 
injuries that we are seeing?
    Mr. England. There are a lot of questions there, Ms. 
Hooley.
    Ms. Hooley. Right.
    Mr. England. I mean, first of all, it would be terrific if 
I could have your paper just so we could respond to your 
examples.
    Ms. Hooley. I would love to have you respond to them.
    Mr. England. Good. Could you, please? That would be very 
helpful and particularly your specific cases, so I can get 
people to look at them and understand it. That would be very 
helpful. A couple of them, though--so, if you give me that, I 
will definitely look into it and close the loop with you on 
that.
    As to the governance, you know, we have changed the policy 
for Reserves and Guard in terms of time so that we have 
actually changed the 1 in 5 so that it is 12 months deployed 
and 5 years, basically back, but whatever it is it is a 1 to 5 
ratio, so that was announced by the Secretary in terms of the 
deployment.
    As to the equipment, I would like to talk to General Blum 
about that. My understanding is that the combat equipment is in 
theater. Obviously, I am not sure what all the specialty is of 
the Oregon National Guard, but as for the trucks and all of the 
things they need for a state-type response, my understanding is 
that the Guards do have that. I mean the question of readiness 
is, one, readiness at the State level; the second is readiness 
for Afghanistan and Iraq, and the third is readiness for accord 
in an all out war-type thing with----
    Ms. Hooley. Well, we do not have readiness for any of 
those.
    Mr. England. So we need to get with General Blum. We will 
do that. If you will provide me with that data, I will follow 
up with General Blum for you and also follow up with the Army 
with your other specific questions.
    [The information follows:]
         care for demobilized soldiers at mtf's closer to home
    Reserve Component Soldiers released from active duty can seek care 
through TRICARE if they have an approved line of duty (LOD) condition. 
The unit commander must complete the LOD investigation and provide it 
to the Military Medical Support Office (MMSO) in Great Lakes, Illinois, 
or the local Military Treatment Facility (MTF). MMSO can authorize care 
for LOD-related medical services in the civilian TRICARE network. The 
local MTF can provide services in the MTF for the LOD condition.
    Active or Reserve Component Soldiers assigned to a Warrior 
Transition Unit may request assignment to the MTF closest to their home 
or family.
    Also, Reserve Component Soldiers who are on medical retention 
processing orders and assigned to Warrior Transition Units (WTUs) may 
be referred to a Community Based Health Care Organization (CBHCO) with 
duty near home.
    The specific criteria for assignment into the CBHCO are:
    (1) Soldier requires at least 60 days of clinical evaluation, 
treatment or convalescence.
    (2) Soldier has a medical condition(s) that can be reasonably 
managed by the CBHCO using available TRICARE-approved providers and 
within TRICARE standards in the Soldier's community.
    (3) Soldier has been assessed for mental health and social support 
status, and has been cleared by a licensed behavioral health provider. 
Behavioral health clearance does not imply the absence of issues, 
rather that issues can be safely managed with the available community 
and family resources. High risk Soldiers or Soldiers with high risk 
Family members are not suitable candidates for remote command and 
medical management.
    The CBHCO program is currently serving approximately 1,300 Soldiers 
around the country.

    Admiral Giambastiani. If I can, Deputy, I would like to add 
to one thing, though.
    Ms. Hooley, about 85 to 90 percent of the equipment that we 
are operating on inside Iraq is active component equipment. 
Some National Guard and Reserve component equipment was brought 
to theater, about 10 to 15 percent of the total. That is mainly 
combat gear, bridging gear; in other words, things to go across 
rivers, small streams and those types of things, specialty 
gear, but generally, as the Deputy has stated, lots of the 
trucks and other things--we have brought some of that over, but 
most of this equipment is active component gear, so that tells 
you that we had a deficiency in equipment before. We knew that, 
and that is why we have put this $30 billion plus into buying 
more.
    Ms. Hooley. It would sure be interesting for me to look at 
or to have you look at whether or not, before somebody becomes 
a flag officer, they should serve a year with the Guard or 
Reserve since they have been so important to our operation in 
this war against terrorists so that there is a better 
understanding with the military about some of these problems 
that I have talked about today. I mean the simple thing is, 
when you are on MEDCOM, that you go back to the base where you 
are deployed from and not to the one closest to your home or 
going to your home and using TRICARE. I mean those are things 
that I think the Department has to begin to understand and to 
recognize.
    Mr. England. Ms. Hooley, if you, again, will provide me 
with your paper, I will look into each one of those issues, and 
we will get--first of all, it would be helpful. I mean I 
appreciate the input. It is helpful input.
    Ms. Hooley. Okay.
    Mr. England. So that would be terrific to provide that, and 
secondly then, we will close the loop and get back with you on 
it, but I think it would be helpful just to understand that 
there are a couple more cases that we can have the folks look 
at----
    Ms. Hooley. All right. Thank you very much.
    Mr. England [continuing]. To better understand this issue.
    Ms. Hooley. Thank you. Thank you for your time.
    Mr. England. Thank you. It is helpful. I appreciate it. 
Thank you.
    Ms. Hooley. Okay.
    Chairman Spratt. Mr. Moore.
    Mr. Moore. Thank you, Mr. Chairman, and Mr. Deputy 
Secretary, thank you for being here today and the others as 
well, and I just want to ask a couple of questions here.
    As you know, since September of 2001, the United States has 
spent more than $500 billion for military operations in Iraq 
and Afghanistan. The nonpartisan Congressional Research Service 
estimated in September of 2006 that the Iraq War costs 
taxpayers almost $2 billion a week, nearly twice as much in the 
first year of the conflict, and 20 percent more than the last 
year. Despite the huge sum of money that is being spent on this 
conflict in order to provide equipment, in some situations our 
troops in harm's way are still lacking the protective gear they 
desperately need. According to an Associated Press story which 
appeared in the Kansas City Star on January 31 of this year, 
the Defense Department Inspector General's Office pulled up, 
roughly, 1,100 service members in Iraq and Afghanistan and 
found that they were not always adequately equipped for their 
missions, and I want to read just a portion of this story to 
you. Again, this is dated January 31 in the Kansas City Star 
Associated Press.
    ``Hundreds of U.S. troops in Iraq and Afghanistan have 
experienced shortages of key protective equipment, including 
armor vehicles, roadside bomb countermeasures, and 
communications gear, a Pentagon survey released Tuesday showed. 
The Defense Department Inspector General's Office pulled up 
1,100 service members and found they weren't always adequately 
equipped for their missions. The troops were interviewed in 
Iraq and Afghanistan in May and June of 2006. Those surveyed 
reported shortcomings with the vehicles outfitted with armor, 
cruiser weapons, which are weapons that take more than one 
person to handle such as artillery or a large machine gun, 
electronic countermeasure devices such as equipment designed to 
foil roadside bombs by interfering with cell phone signals that 
may be used to detonate them and communications equipment.''
    Mr. Deputy Secretary, I do not for one minute think that 
you do not want to provide everything we need to our troops, 
and I think you feel exactly as Members of Congress do, that we 
should do everything we can to protect our troops, but I am 
very discouraged when I read articles like this.
    Mr. England. Mr. Moore, I, actually, followed up with the 
Army on this issue. I can tell you cruiser weapons--I mean we 
have an enormous number of cruiser weapons. I mean the Army 
does not understand that comment. We have huge numbers of 
cruiser weapons.
    The electronic countermeasures, without going to classified 
areas, for the counter-IED, because the threat keeps changing, 
we keep changing to fit the new threat, but that is like, you 
know, measures and countermeasures, and that is where we are, 
and we have, I believe, in the budget this year $4.8 billion in 
this counter-IED. But I mean, look, the adversary is good, and 
we have to adjust to them, and so we are building all kinds of 
equipment, and they keep moving on and we keep moving on, but I 
can assure you that gets addressed, but at any given time you 
are not always going to have the latest equipment because we 
are constantly developing the latest equipment and fielding it, 
and there is obviously time to get it out of the factories and 
into the theater. I mean armor vehicles--as the Admiral said, 
nobody goes, quote, ``outside the wire'' without having the 
right armor vehicles, and we keep improving and buying new 
versions of that also, so we keep upgrading and at any given 
time you are absolutely right. I mean nobody has the latest 
equipment every day because it is just not possible to do. I 
mean, unless we were to hold things static, then we would, but 
we do not want to do that, and neither do our men and women in 
uniform.
    So, I mean, there is probably some validity in this, but I 
think it is a mixture of things. I mean it is not just as clear 
as that article portrayed. I can assure you that----
    Mr. Moore. This article is based, of course, on a poll of 
1,100 troops serving in Afghanistan and Iraq, and that is what 
they believe, rightly or wrongly. That should be a concern to 
all of us, I think.
    Mr. England. Admiral.
    Admiral Giambastiani. If I could, Mr. Moore----
    Mr. Moore. I hate to stop you, but I have got 1 minute 
left, and I have got another area I want to cover very 
carefully and at least get this out and give you a chance to 
respond.
    I talked to Secretary Rumsfeld in a small meeting of about 
10 or 12 Members of Congress, and Secretary Rumsfeld was 
there--and this was, I think, a couple of years ago--and I 
said, ``Mr. Secretary, I am very concerned about the stress we 
are putting, our country is putting, on our Guard and Reserve 
units. Our active people knew what they signed up for when they 
signed up. Our Guard and Reserve units have been used in ways, 
I think, that were never contemplated when most of them signed 
up. They have been deployed and redeployed twice and sometimes 
as many as three times now. It is putting incredible stress on 
families. It is putting incredible stress on job situations 
back home, and I have tremendous respect for all of our troops 
and whatever unit they serve in and whatever active Guard or 
Reserve, but I am very concerned about the devastation I think 
we may be doing to our Guard and Reserve units, and I just 
wonder if we can count on some sort of change of policy or at 
least a study of this to decide what we need to do in the 
future.''
    Mr. England. The Secretary, Mr. Moore, did announce a new 
policy because of the issues you cite, so recognized issues, 
and now the policy is, as I commented before, 1 in 5 for every 
Reserve and National Guard so they can plan, and so the units 
will be called up as a unit, and they will be 1 in 5 so they 
know that once they serve, 1 time in, 5 times out, but I also 
have to tell you it will not happen immediately. I mean that is 
the long-term policy as we adjust to getting there, but that 
had been announced by Secretary Gates when he came in office, 
to provide better stability and better planning by the people 
who serve and also by their employers.
    Mr. Moore. Thank you, sir.
    Admiral Giambastiani. Mr. Moore, if I could, just to 
respond to you on the equipment issues----
    Mr. Moore. And I was not trying to cut you off.
    Admiral Giambastiani. I understand, sir.
    What I wanted to just mention to you is that I do not know 
exactly the number of, for example, counter-improvised 
explosive devices that we had, these jammers, if you will, but 
it was probably less than 1,000 when we went into Afghanistan 
and when we went into Iraq.
    Today, we have about 28,000, and we are building them as 
fast as we can produce them with the best software code and 
also the best hardware capabilities that we can put into them, 
and we are just rolling them out as quickly as possible with 
the very substantial help of Congress here. As the Deputy said, 
we have put $4.4 billion into this most recent request here for 
counter-IED stuff. Like armor, we are producing it as fast as 
we can.
    As a commander, when you are in the field and if you do not 
have a sufficient amount of jammers, for example, you will 
compensate for that by not operating as many vehicles to do 
that. So I am sure there is truth to what some of these troops 
are talking about, and we run these down. There is no doubt 
about it. Every time the enemy has a vote and they change their 
tactics or change their weaponry, we will respond also or try 
to anticipate with new armor, new equipment so that we can do 
it as quickly as possible, and that is why we have tried to 
break down a lot of bureaucratic barriers to deliver this stuff 
with your support here in the Congress.
    Thank you.
    Mr. Moore. Thank you, Admiral.
    Chairman Spratt. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman, very much.
    Hello, Secretary England, and both of your colleagues.
    Mr. England. Good morning. Is it still morning?
    Ms. Kaptur. I guess so.
    I wanted to thank you for your service, first of all, all 
of those who are in the room here with you, all of those under 
your command. We all know you are following orders.
    I want to say for the record I do not agree with the orders 
you are following. I think that the orders by this Commander in 
Chief were reckless. He miscalculated the enemy, and he 
miscalculated and was unprepared for the nature of this 
invasion, and I use as some of my evidence for that the fact 
that your supplemental this year is larger than your base 
budget request. That is another sign to me of total lack of 
preparation for what our soldiers are facing and what this 
department is facing in theater. When you come up with a 
supplemental of 93 point, I think, 4 or 5 and the base budget 
was $70 billion and you look at the relationship there----
    Mr. England. No. No. Ms. Kaptur, you are confused there. 
The budget last year, the supplemental, the first part of the 
supplemental, was $70 billion. This part of the supplemental is 
$93 billion. So those two together are supplementals, not the 
base budget.
    Ms. Kaptur. Yes, but I am talking about the global war on 
terror, and the point is you are constantly supplementaling us. 
You are not providing the request in the base budget. So the 
budgeting on this has been very arcane, in my opinion, and I do 
not remember in my years in Congress ever seeing a budget 
piecemealed like this, and that shows to me you are trying to 
tack on every time there is a shortage or you need something 
out in theater and coming to us with a supplemental, so I 
totally disagree with this.
    I disagree with your statement where you say that we are 
spending very little on this war because it is only 4 percent 
of GDP. I do not want to get into this in too much detail, but 
let me just say that the GDP is an improper number compared to 
World War II or any other decade when the United States was 
independent financially. Right now, we are owing so much to the 
rest of the world we are borrowing to fund this government. We 
have got a debt of nearly $9 trillion, and that does not count 
the debt in the private sector. America is borrowing her way 
forward. We are not paying these bills, and then we knock a 
full point off of GDP because of our nearly $1 trillion trade 
deficit, and we are watching our currency fall all over the 
world in relation to other currencies. So the result here at 
home is stagnant incomes for our families. The middle class is 
falling backward, and we have extraordinary rises in poverty. 
So I take exception to what you are saying that this is not a 
lot of money piled on to the type of GDP that we are 
experiencing today. Those are not my questions. Those are my 
statements.
    My questions are: I know so many soldiers, and they are so 
brave, and I have just met with so many of them again over in 
the Middle East and here. We know victory means one-third 
military, two-thirds diplomatic, political and economic, and it 
is that two-thirds that is missing, so we keep pushing it on 
our soldiers to solve all of the problems over there.
    Mr. Secretary, do I have your assurance, of the brigades 
that are going to be deployed into theater, are they going to--
and the ones that will be deployed into urban warfare in 
Baghdad, will they all be trained at 29 Palms at Fort Ord in 
California?
    Admiral Giambastiani. I think I should answer that, Ms. 
Kaptur, and the answer is some will be. The answer is no. Some 
will be trained by the units from these locations in their home 
stations. I think you know this from the State of Washington.
    Ms. Kaptur. Well, I wanted to say something about that.
    I know a Marine who was trained on a Howitzer. He is going 
to be deployed in about 3 weeks. He is down at Camp Pendleton. 
He is not out there in California. They told him he is going 
into Anbar Province, and he is going to be doing door-to-door 
clearance. All right. I do not like that. I think that if we 
send anybody into that environment they ought to have full 
training, and so I am going to submit some questions to the 
record on who we are sending and what they are being trained 
on. One of my----
    Admiral Giambastiani. Please submit them, ma'am, and we 
will answer each one of these individual ones, but when we take 
a Marine or a soldier or a sailor or an airman to do another 
job--we call that ``in lieu of jobs''--we will take somebody 
from a different area. We train them for that job before we put 
them into it.
    Ms. Kaptur. Well, I would like to know the difference in 
training there because this goes right down into the unit, 
their ability to protect one another, and when you shift 
somebody's responsibility like that--I can tell you that one of 
the soldiers who was killed in my district was separated from 
his unit. He was put in some other responsibility. They have to 
train in the unit. We have to give them the best training in 
the country, and I think that we are seeing the kind of 
shifting down at the unit level that we have seen in the 
budget.
    So my time is running out, but I just want to say we have 
an Ohio sergeant in the Army who has just been transported to 
Walter Reed. I visited him out at Landstuhl, and he has a 
severe spinal cord injury. What I want to ask you, Secretary 
England, is--and this sort of follows on what Ms. Hooley said. 
He has to go to a spinal injury center in our country--there 
are only four of them--for what he has, we are told, for rehab, 
all right? Now, none of them are located near where he comes 
from in Ohio or where he is deployed out of, Fort Collins, 
Colorado, so they give his wife some kind of a ticket or 
something where she can go visit him wherever he is going to be 
put, and we do not know where he is going to be put yet, but he 
also has a mother and father who live in Ohio. Isn't there a 
way that the Department--I mean, for this young wife--they had 
only been married for a few months before he was deployed. She 
is going to have to do all of this. Is there any way that you 
could handle the travel so that that ticket, if the wife is not 
there, could be somehow given to the family so that they could 
have follow-on with this young soldier? He is so terribly 
injured. This is going to be a long road for this family. Could 
you consider some type of alteration in the way you are 
handling this so these families can deal with the reality of 
the seriousness of these injuries?
    Mr. England. I believe we do that. I mean we bring whole 
families in for our militaries. So if you will give me this one 
case, I will look into it. It would be helpful to deal with the 
specific case because, I mean, we do bring in parents and 
family, but if you will give me that particular case, I will 
look into it personally.
    Ms. Kaptur. All right. Thank you, Mr. Chairman, very much. 
I do have one question for the record also.
    I would like the Department to give to me, since the 
beginning of the war, every single contract you have signed 
with Aegis Corporation either directly or through an 
intermediary. I do not care if it was the Coalition Provisional 
Authority, whether it was the reconstruction process over there 
in Iraq, and I want to know the dates, the amounts, who signed 
the contracts. I want to know who is being employed and what 
countries they are from. I will submit a longer question for 
the record. A-E-G-I-S, out of Britain.
    Mr. England. A-E-G-I-S?
    Ms. Kaptur. Yes. Every time, not just the reconstruction. I 
was over in Baghdad, and they had me meet with the company when 
I was over there, and they were only talking about contracts 
that were with the reconstruction authority. I want to know 
those that were signed under the CPA with that same company, 
and that was not given to us when we were there.
    Thank you, Mr. Chairman.
    [The information follows:]

    The contractor is Aegis Defence Services, Ltd. (AEGIS) of 118 
Piccadilly, LONDON W1J7NW. AEGIS was awarded the Reconstruction 
security services contract in May 2004; contract number W911SO-04-C-
0003. The award was made under full and open competition. AEGIS was one 
of six (6) submitted offers. Selection was based upon the factors and 
subfactors established in the solicitation, to include, technical 
(performance) management and cost, and the Source Selection Authority's 
review of the evaluation results and his integrated assessment and 
comparisons of the strengths, weaknesses, and risks of the proposals 
submitted. AEGIS' proposal had significant strengths over the other 
offeror's and demonstrated a thorough understanding of the contract 
requirements. AEGIS is registered in the DoD's Central Contractor 
Registration (CCR), and is neither a debarred nor suspended contractor. 
The contract was awarded to AEGIS as it provided the best value to 
satisfy the needs of the Coalition Provisional Authority (CPA) for Iraq 
reconstruction security services. The contract is cost reimbursable 
with a fixed fee.
    Under the contract, AEGIS provides a variety of security functions 
at both the national and operational level. AEGIS provides security 
services to the U.S. Army Corps of Engineers (USACE), Gulf Region 
Division (GRD) throughout Iraq and to the Joint Contracting Command-
Iraq/Afghanistan (JCC-I/A). Based upon the U.S. Central Command 
(USCENTCOM) contractor census, as of April 5, 2007, AEGIS employs 
approximately 1,000 employees in Iraq, 250 of whom are Iraqis.
    Request For Proposal (RFP) W91GXZ-07-R-0004 was issued on January 
19, 2007, to re-compete the reconstruction security services contract. 
JCC-I/A extended the current AEGIS contract through late November 2007 
as a protest was filed at the General Accountability Office that 
prevented an award prior to expiration of the current contract; the 
extension ensures continued security services for the Iraq 
reconstruction effort. The contract, as extended through November 2007, 
is valued at $447,515,614.

    Chairman Spratt. Thank you, Ms. Kaptur.
    Secretary England, Undersecretary Jonas, Admiral 
Giambastiani, thank you very much for coming. We very much 
appreciate it, and we have learned something from your answers. 
We would appreciate your answers for the record to the 
questions that have been put to you.
    I would also like to ask unanimous consent that members who 
did not have the opportunity to ask questions be given 7 days 
to submit questions for the record.
    Mr. England. That would be fine. I would be happy to 
cooperate. Nice being with you again, Mr. Chairman.
    Chairman Spratt. Thank you very much.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
